<html>
<title> - TRADE AND HUMAN RIGHTS: THE FUTURE OF U.S.-VIETNAMESE RELATIONSHIPS</title>
<body><pre>[Senate Hearing 108-464]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-464

                        TRADE AND HUMAN RIGHTS:
              THE FUTURE OF U.S.-VIETNAMESE RELATIONSHIPS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



93-953              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, opening statement.     1

Daley, Matthew, Deputy Assistant Secretary of State for East 
  Asian and Pacific Affairs, Department of State.................    10
    Prepared statement...........................................    12

Dinh, Viet D., Deputy Director, Asian Law and Policy Studies, 
  Georgetown University Law Center...............................    40
    Prepared statement...........................................    42

Eban, Rmahy, Montagnard Refugee..................................    45

Foote, Virginia, President, U.S.-Vietnam Trade Council...........    32
    Prepared statement...........................................    34

Hanford, Hon. John, Ambassador-at-Large, Office of International 
  Religious Freedom, Department of State.........................     3
    Prepared statement...........................................     6

Seiple, Hon. Bob, Chairman of the Board, Institute for Global 
  Engagement.....................................................    29
    Prepared statement...........................................    31

Thang, Nguyen Dinh, Executive Director, Boat People SOS..........    27

Young, Michael, Commissioner, U.S. Commission on International 
  Religious Freedom..............................................    20
    Prepared statement...........................................    23

                                Appendix

Additional Questions for the Record Submitted to Deputy Assistant 
  Secretary of State Matthew Daley by Senator Feingold...........    55

                                 (iii)

  

 
  TRADE AND HUMAN RIGHTS: THE FUTURE OF U.S.-VIETNAMESE RELATIONSHIPS

                              ----------                              


                      Thursday, February 12, 2004

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senator Brownback.

              OPENING STATEMENT OF SAM BROWNBACK,
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. I'm 
delighted to have you all here today. I apologize for starting 
the hearing 25 minutes late. We just had a vote on the floor. I 
had to preside, too, so I wasn't able to be here on time. I 
appreciate very much your patience for waiting for me.
    This Senate hearing is the first since 1999 to focus 
broadly on the U.S.-Vietnam relationship, specifically on the 
progress on human rights and particularly religious freedom. 
Much has happened since that time, a lot it of for the better, 
including the robust trading relationship between the two 
countries. Beyond that we see countless examples of how the two 
countries are dealing with the long-term impact of the Vietnam 
war through respect, forgiveness, and healing.
    Hundreds of American veterans travel back to the country 
they remember as a war zone and make personal amends with the 
Vietnamese people. Nearly 1 million Vietnamese have resettled 
in the United States since the end of the war, and their 
collective and often inspiring individual stories of 
achievement in a short period of time stand as an enduring 
testament to the opportunities that a free country like the 
United States can offer.
    I would offer as example Viet Dinh, one of our witnesses 
who was a former assistant attorney general at the Department 
of State--or, excuse me, Department of Justice--who will 
testify here today.
    But many other issues continue to linger. Thousands of 
refugees are in limbo in the Phillippines as they struggle for 
national identity and resettlement status. On this issue I 
would urge the Department of State to designate this group for 
P2 refugee resettlement status as soon as possible, and I 
believe we have some family members here who have refugee 
members that are still in that limbo--if I could have them 
stand up in the back--whose family members are still in limbo 
in the Phillippines, stateless. We have approximately, I 
believe 1,800 Vietnamese there and we really do need to get 
this issue resolved. Thank you very much for joining us today.
    There's every reason to expect that the roughly 1,800 
Vietnamese remaining in the Philippines can qualify for 
resettlement under the refugee standard, and as the last group 
of refugees remaining from the war, we should move quickly to 
resolve this lingering issue.
    Over the past several months my office has received 
numerous reports of church closings, arrests and beatings, 
imprisonments of dissidents, forced renunciations, and 
crackdowns against various outlawed religious groups. Even the 
Department of State in its recent annual report on religious 
persecutions said this: ``The situation remained poor or 
worsened for many ethnic minority Protestants in the central 
highlands and northwest highlands'' and that ``the government 
continued to maintain broad legal and policy restrictions on 
religious freedom.''
    I personally traveled to Vietnam last month to see first-
hand the progress that they had made. I had a staff member of 
mine, Hannah Royal, who is here today, stay on for another 
week. I wanted to personally investigate reports of religious 
persecution and to convey my concerns to the Vietnamese 
Government officials. With that purpose in mind, prior to my 
departure I made a specific request to visit with Father Ly, 
who is a well-known political religious prisoner. He's 
internationally recognized as a prisoner of conscience.
    My purpose was simple. I wanted to inquire about Father 
Ly's health, to talk about why he was in jail, and to deliver a 
simple care package from his relatives. Before I left I had 
very low expectations that I would be granted that wish, but to 
my surprise, when I stated to the Vice Minister for Public 
Security my desire to meet with Father Ly, they obliged, and I 
was able to go and meet with him. Father Ly, I assume is well-
known to many of you. He served time in the 1970s and 1980s and 
was again imprisoned about 3 years ago for submitting written 
testimony to the U.S. Commission on International Religious 
Freedom about the limitations and restrictions that churches 
were facing in Vietnam.
    The visit with Father Ly was inspirational to me. It 
clearly was staged. His responses appeared to be scripted. In 
fact, I couldn't help asking him at one point why he was in 
jail in the first place. He seemed like a model prisoner and 
out of place being in jail.
    For every Father Ly who is known to human rights advocates 
around the world calling for justice, it struck me that there 
are hundreds, if not thousands of others sitting in jail for 
actions that we would take for granted in this country: 
assembling in a house church to worship, getting together to 
discuss politics, advocating for reforms like private property 
rights, or even using the World Wide Web.
    If we want to develop a meaningful relationship with 
Vietnam that will be sustained over the years, one that 
respects and does justice to the tragic history between Vietnam 
and the United States and to the memory of all who served and 
all who perished, it has to be based on something more than 
trade.
    In my opinion, Vietnam is capable of doing that. I'm 
hopeful about Vietnam and will continue to support efforts to 
deepen the relationship with the United States, but only if 
they make genuine progress in upholding internationally 
recognized human rights. Vietnam holds the keys in its own 
hands to the relationship with the United States. It should 
seize this moment to make a gesture beyond those of a few 
staged visits with jailed dissidents, however remarkable those 
may be.
    As I said to Vietnamese Government officials, human rights 
should not have to be an impediment to the growing relationship 
with the United States, and now is the time to convince the 
international community, and particularly the United States, of 
Vietnam's willingness and commitment to change. If Vietnam is 
serious about entering the World Trade Organization by 2005, 
and that is something that I think would be good for Vietnam, 
they need to be as serious about improving human rights and 
religious freedom for all their people.
    One major step in the right direction would be to release 
Father Ly. There's no reason for him to be in jail. This should 
be followed with a commitment to review existing laws that may 
purport to provide freedoms to the people but have no 
substance. Vietnam can pass all the laws it wants, but if it 
can continue to arbitrarily jail Buddhists, Buddhist monks, or 
Catholic priests for failing to register their temples or 
parishes, then the laws do not have meaning.
    I hope that each of our witnesses can address these issues. 
Over the next year the U.S. Government and others will be 
examining Vietnam closely, especially in the context of the 
WTO, and issues of trade and human rights will continue to be 
linked during these discussions, and they will be very 
important during these discussions.
    I'm delighted to have the number of witnesses that we have 
here today to testify before this hearing. On our first panel 
is the Honorable John Hanford. He's the Ambassador-at-large in 
the Office of International Religious Freedom, Department of 
State, no stranger to the Senate, having worked in the Senate 
offices of Senator Lugar for, I think, nearly 10 years; having 
a relative, Elizabeth Hanford Dole, in the Senate is nice as 
well. Good to have you here.
    And then Mr. Matthew Daley is Deputy Assistant Secretary of 
State, Bureau of East Asia and Pacific Affairs, Department of 
State, is here as well. I'm delighted to have you gentlemen 
here. Let me open it up to you. Your written testimony will be 
in the record, and I look forward to what you have to say.
    Mr. Hanford.

STATEMENT OF HON. JOHN HANFORD, AMBASSADOR-AT-LARGE, OFFICE OF 
      INTERNATIONAL RELIGIOUS FREEDOM, DEPARTMENT OF STATE

    Mr. Hanford. Thank you, Mr. Chairman, and let me begin by 
thanking you for holding this hearing. It's an honor for me to 
be here, and I'm proud to represent the Department of State and 
President Bush in this regard.
    Today I will address some of the current conditions for 
religious believers in Vietnam, some of our efforts in this 
area, and some perspective on how this issue relates to overall 
trends in Vietnam and our bilateral relationship.
    Vietnam has been one of my very highest priorities as 
Ambassador. I've traveled there twice myself, and my staff has 
also traveled there twice with another visit planned in the 
coming weeks. I've also met on numerous occasions here in 
Washington with senior Vietnamese officials. We've also worked 
closely with numerous congressional offices focused on human 
rights, religious freedom, and Vietnam.
    The attention paid by Congress has done much to gain the 
attention of the Vietnamese Government and to make clear that 
this is a significant concern to many of the American people as 
well.
    Let me acknowledge especially, Mr. Chairman, the high 
priority and diligent efforts that you have devoted to this 
issue, particularly the focus you gave this on your recent trip 
to Vietnam, and it's an honor to share in this concern with 
you.
    I also want to give a nod to my old boss, Senator Lugar, 
who has, along with you, championed this issue of religious 
freedom for many years. I remember sitting with him one day in 
his office as he placed a call to Vietnam and single-handedly 
secured the release of a religious prisoner.
    On my most recent trip to Vietnam in October, I took the 
most hands-on approach I possibly could. I engaged in lengthy, 
vigorous, and candid exchanges with many senior Vietnamese 
leaders. Along with Ambassador Burkhart, I traveled to two 
provinces in the central highlands which have been sites of 
some of the most egregious reports of religious persecution 
that we have received.
    We've received numerous credible reports of hundreds of 
churches and home worship gatherings being forced to close or 
disband in the central highlands since 2001. Despite the 
assurances I received from provincial authorities that 
religious freedom violations were not occurring in their areas, 
it was readily apparent that some significant problems exist.
    Take, for example, the dramatic disparity between the 
number of Protestants and the number of registered churches in 
Dac Lak and Gia Lai Provinces. In Dac Lak, the provincial 
governor told us that the province had 120,000 Protestants and 
there are two registered churches.
    Senator Brownback. They're big churches, huh?
    Mr. Hanford. Hundreds have been closed. We knew that many 
other churches had requested registration, and we asked about 
their prospects. The authorities gave us the rather circular 
response that these churches could not be registered until they 
had approved pastors and approved buildings, but the pastors 
and buildings could not be approved until they were registered 
with churches. And then there are further problems because the 
pastors have to go to seminaries that generally don't exist.
    Gia Lai Province was similar in conditions, problems, and 
in the position of the authorities. Some 70,000 to 100,000 
Protestants have only seven registered churches despite 
consistent requests for more to be registered.
    Vexing registration procedures are not the only problem 
facing these Protestants. I heard numerous first-hand and 
credible accounts of believers being pressured to renounce 
their faith, at times being physically beaten, detained, or 
imprisoned, and being forbidden from gathering for worship. 
We've also continued to receive similar accounts from the 
northwest highlands. Department officials also were told by 
provincial officials in Ha Giang Province that there are no 
Protestants in that province and were then blocked from 
traveling to areas of the province, which have reported serious 
issues with local official persecution. We've even received 
credible reports of the deaths in custody of one Hmong 
Protestant leader in Lai Chau Province in July 2002, and 
another Hmong Protestant leader in Ha Giang Province in July of 
2003.
    We have learned of some indications of possible positive 
developments. For example, on both of my trips to Vietnam, I 
presented lists of religious prisoners to government officials. 
In response to this, just a few weeks ago I met with a senior 
official, and we were given reports that a number of these 
prisoners had been released. We're attempting to verify their 
status. They also claimed that they could not locate a number 
of the prisoners on our list, and of course we want to follow 
up on those as well.
    We've also received unconfirmed information indicating that 
the government may be taking steps to register a few additional 
churches. We will investigate these reports and continue to 
monitor the situation closely.
    I was pleased to learn of your recent visit in prison with 
the Catholic priest, Father Ly. On my first trip to Vietnam in 
August 2002, I had been given assurances that his 15-year 
prison sentence would soon be reduced. I was disappointed and 
had expressed this very clearly to the government when the 
sentence was only reduced to 10 years. He should not be in 
jail.
    I and other senior U.S. officials have continued to raise 
his case on many occasions, as well as the sentences that have 
been handed down to his nephew and niece. During my recent 
visit, I was given assurances that his family members would be 
released, and of course we were encouraged that on November 
28th when the appeals court reduced the sentences of the nephew 
and niece. And the niece is no longer in jeopardy, and the 
nephews are, as you know, in the process of being released 
about this time.
    The plight of the outlawed United Buddhist Church of 
Vietnam, the UBCV, is another concern that we raise frequently. 
Several times on my last trip, when I would ask about the 
harassment, restrictions, and detention of several UBCV leaders 
in September and October, Vietnamese officials told me that the 
monks had been detained for possessing state secrets. When I 
would ask with some incredulity what manner of state secrets a 
monk could possibly possess, I received reply that we don't 
know because they're state secrets.
    Vietnamese officials frequently pointed out to me the 
significant growth of religious practice and adherence in 
Vietnam in recent years across a spectrum of faiths. My staff 
and I did indeed observe flourishing religious activity in many 
places and in many faiths, but the presence of religious 
practice does not necessarily mean the presence of religious 
freedom. Many Vietnamese are free to practice their faith with 
few restrictions and no repercussions, but too many other 
Vietnamese people are not.
    Our message to the Government of Vietnam has been clear and 
consistent. We appreciate and affirm the steps they have taken 
towards expanding freedom, both economic and religious. 
However, serious problems remain, and we urge Vietnam to end 
its ongoing violations of religious freedom. Vietnam has been 
cautioned repeatedly that it faces possible designation as a 
country of particular concern under the International Religious 
Freedom Act. We are continuing to monitor this situation 
closely as we undertake the Country of Particular Concern (CPC) 
review process.
    Many of Vietnam's leaders are quite mindful of their 
history and their current challenges. Some described to me the 
relative unfamiliarity with which they regard religious belief, 
and attempted to place the question of religious freedom in the 
context of an evolving Communist state. In discussing such 
matters with certain Vietnamese leaders, they often contend 
that some religions are new to Vietnam and receive hostile 
treatment because they are unfamiliar. I usually reply that I 
do not find this argument persuasive, in part because these 
same faiths have been present in Vietnam longer than they and 
the Communist party.
    I understand that this hearing is addressing the matter of 
trade and human rights in Vietnam. Any visitor to Vietnam 
cannot help but be impressed, as was I, by the growing 
prosperity and thriving commercial sector in many urban areas. 
How does this relate to the question of human rights, 
particularly religious freedom? I believe that a philosopher 
well known to you, Mr. Chairman, Michael Novak, might offer 
some insights. Novak has argued that a well-ordered society 
must stand on three pillars of freedom, free in its polity, 
free in its economy, and free in the realm of conscience and 
inquiry.
    Vietnam continues to expand in the realm of economic 
freedom, and this is no small achievement, but expanding 
economic freedoms must be accompanied by expanding freedoms in 
other areas, religious freedom being a principal concern. I 
note that today is the birthday of Abraham Lincoln, and I would 
like to close with a quote from him. Lincoln insisted that the 
principles embodied in our Declaration of Independence 
ultimately promised ``liberty not alone to the people of this 
country, but hope to the world for all future time.''
    And so it is with religious freedom. It is not the 
exclusive birthright of Americans, but a universal hope of all 
people including the people of Vietnam.
    Thank you.

    [The prepared statement of Mr. Hanford follows:]

      Prepared Statement of John Hanford, Ambassador-at-Large for 
          International Religious Freedom, Department of State

Trade and Human Rights: The Future of U.S.-Vietnamese Relations
    Mr. Chairman and Members of the Committee: let me begin by thanking 
you for holding this hearing. It is an honor for me to be here, and I 
am proud to represent the Department of State and President Bush in 
this regard. As my colleague Deputy Assistant Secretary Daley will 
share, relations between the United States and Vietnam in recent years 
have strengthened and improved in several important areas. And yet some 
significant issues remain. One of these is religious freedom, and today 
I will address some of the current conditions for religious believers 
in Vietnam, some of our efforts in this area, and some perspective on 
how this issue relates to overall trends in Vietnam and our bilateral 
relationship.
    As Assistant Secretary of State for East Asia and Pacific Affairs 
James Kelly noted last October, differences between our countries on 
human rights and religious freedom ``have the potential to impede the 
forward momentum in our ties more than any other issue.'' Our 
relationship with Vietnam will never develop to its full potential 
unless and until the Government of Vietnam protects and promotes 
fundamental human rights, including religious freedom, for its 
citizens. Conversely, if the Government of Vietnam were to take further 
steps to honor its international commitments and improve its respect 
for religious freedom, it would greatly benefit both the people of 
Vietnam and relations between our countries.
    Vietnam has been one of my very highest priorities as Ambassador. I 
have traveled there twice myself, and my staff has also traveled there 
twice, with another visit planned in the coming weeks. We have worked 
with our Embassy staff in Vietnam to keep religious freedom at the 
forefront of our diplomatic interactions with the Government of 
Vietnam. I have also met on numerous occasions here in Washington with 
senior Vietnamese officials. Each of these times, we have made quite 
clear to the Vietnamese Government that religious freedom is a top 
priority to us, that it is a signal issue in our bilateral 
relationship, and that the central Government must take responsibility 
for seeing that the abuses of religious believers and violations of 
religious freedom end.
    Concern for religious freedom in Vietnam is of course not confined 
to my office. I have discussed the religious freedom problems in 
Vietnam with President Bush. Secretary Powell, Deputy Secretary 
Armitage, and other senior administration officials have spoken frankly 
with Vietnamese leaders about the need to end religious freedom 
violations. The administration is committed to ensuring that religious 
freedom is raised every time American and Vietnamese leaders interact. 
It is especially important that the U.S. Government speak with one 
strong voice on this issue.
    We have also worked closely with numerous Congressional offices 
focused on human rights, religious freedom, and Vietnam. The attention 
paid by Congress has done much to gain the attention of the Vietnamese 
Government, and to make clear that this is a significant concern to 
many of the American people as well. Let me acknowledge especially, Mr. 
Chairman, the high priority and diligent efforts you have devoted to 
this issue, particularly the focus you gave to it on your trip to 
Vietnam last month. I know that this is also an issue that Chairman 
Lugar has worked on. I recall one case several years ago in which I 
watched him place a strategic phone call to Vietnam that resulted in a 
religious detainee being released.
    Since religious freedom is recognized as a universal human right 
and a concern of the international community, we also have sought 
multilateral support by working with like-minded countries to press the 
Vietnamese on specific cases and issues of concern. The Department 
works with diplomatic representatives from other Western governments, 
to share insights and cooperate on promoting religious freedom in 
Vietnam. I applaud such initiatives in Congress as well, such as the 
visit made last year by U.S. Congressman Joseph Pitts and Lord David 
Alton of the British Parliament.
    My staff and I also meet regularly with religious and human rights 
organizations focused on Vietnam. We continue to be impressed with the 
dedication, diligence, and care that many of them display, and often 
find them to be valuable sources of information and insight on Vietnam. 
I should also mention our appreciation for much of the good work done 
by the United States Commission on International Religious Freedom 
(USCIRF) regarding Vietnam. Much of USCIRF's research and insights have 
been very valuable for informing our work on religious freedom.
    On my most recent trip to Vietnam in October, I took the most 
``hands-on'' approach I could. I engaged in lengthy, vigorous, and 
candid exchanges with many senior Vietnamese leaders, including the 
Deputy Prime Minister and officials in the Foreign Ministry, Public 
Security Ministry, National Assembly, Religious Affairs Bureau, and 
other Communist Party organizations. While we frequently disagreed, I 
appreciated the willingness of these Vietnamese officials to discuss 
religious freedom and listen to our concerns. Along with Ambassador 
Burghardt, I traveled to two provinces in the central highlands, which 
have been the sites of some of the most egregious reports of religious 
persecution we have received.
    We had received numerous credible reports of hundreds of churches 
and home worship gatherings being forced to close or disband in the 
central highlands since 2001. I began by meeting with the provincial 
governors and other officials in each province. Despite their 
assurances to me that religious freedom violations were not occurring 
in their areas, it was readily apparent that some significant problem 
exist. Take, for example, the dramatic disparity between the number of 
Protestants and the number of registered churches in Dak Lak and Gia 
Lai Provinces. In Dak Lak, the provincial authorities told us that the 
province had 120,000 Protestants and two registered churches. When 
Ambassador Burghardt and I pointed out the problem that this dearth of 
churches posed for the vast majority of Protestant worshipers, the 
authorities rather insouciantly replied that the others could just 
worship with their immediate families in their own homes.
    We knew that many other churches had requested registration, and 
asked about their prospects. The authorities gave us the rather 
circular response that these ``churches'' could not be registered until 
they had approved ``pastors'' and approved buildings, but the 
``pastors'' and buildings could not be approved until they were 
registered with ``churches.'' Gia Lai Province was similar, in 
conditions, problems, and the position of the authorities. Some 71,000 
to 100,000 Protestants had only seven registered churches, despite 
consistent requests for more to be registered.
    Vexing registration procedures are not the only problem facing 
these Protestants. It may illustrate the challenges facing many 
religious believers in Vietnam, but hardly tells the extent of their 
plight. I heard numerous firsthand and credible accounts of believers 
being pressured to renounce their faith, at times being physically 
beaten, detained or imprisoned, and being forbidden from gathering for 
worship. Nor are these reports confined only to the central highlands. 
We have also continued to receive similar accounts from the Northwest 
Highlands, of churches being closed and ethnic minority Protestants 
being beaten, imprisoned, or pressured to renounce their faith. 
Department officials also were told by provincial officials in Ha Giang 
Province that there are no Protestants in that Province and were then 
blocked from traveling to areas of the Province which have reported 
serious issues with local official persecution. We have even received 
credible reports of the deaths in custody of one Hmong Protestant 
leader in Lai Chau Province in July 2002, and another Hmong Protestant 
leader in Ha Giang Province in July 2003.
    We have learned of some indications of possible positive 
developments. For example, on both of my trips to Vietnam, I presented 
lists of religious prisoners to government officials. We have received 
reports that a number of prisoners have been released and are 
attempting to verify their status. We are trying to confirm whether 
religious prisoners were released during the recent Tet prisoner 
amnesty. We have also received unconfirmed information indicating that 
the Government may be taking steps to register additional churches. We 
will investigate these reports and continue to monitor the situation 
closely. If true, these would be welcome steps.
    I was pleased to learn of your recent visit in prison with the 
Catholic priest Father Nguyen Van Ly, Mr. Chairman. On my first trip to 
Vietnam in August, 2002, I had been given assurances that his 15-year 
prison sentence would soon be reduced. I was disappointed when last 
year his sentence was only reduced to 10 years. He should not be in 
jail. I and other senior U.S. officials have continued to raise his 
case on many occasions, as well as the sentences that had been handed 
down to his nephews and niece. During my recent visit, I was given 
assurances that his family members would be released. We were 
encouraged on November 28 when the Appeals Court reduced the sentences 
of the nephews and niece. We will continue to press for Father Ly's 
release from his unjust imprisonment, solely for the peaceful 
expression of his religious and political views.
    The plight of the outlawed United Buddhist Church of Vietnam (UBCV) 
is another concern that we raise frequently, particularly the UBCV 
leadership and the pressures they face. Several times on my last trip, 
when I would ask about the harassment, restrictions, and detention of 
several UBCV leaders in September and October, Vietnamese officials 
told me that the monks had been detained for ``possessing state 
secrets.'' When I would ask with some incredulity what manner of 
``state secrets'' a monk could possibly possess, I received the reply 
that ``we do not know, because they are state secrets.'' Such 
responses, and such conditions, are quite unfortunate, and reveal the 
significant restrictions faced by too many religious believers in 
Vietnam. We will continue to urge the Vietnamese Government to engage 
in discussions with the UBCV leadership on normalizing its status.
    Vietnamese officials frequently pointed out to me the significant 
growth of religious practice and adherence in Vietnam in recent years, 
across a spectrum of faiths including Buddhism, Catholicism, 
Protestantism, the Cao Dai, and the Hoa Hao. My staff and I did indeed 
observe flourishing religious activity in many places and in many 
faiths, and of course we regard the relative freedom these believers 
enjoy as a welcome development. But the presence of religious practice 
does not necessarily mean the presence of religious freedom. Many 
Vietnamese are free to practice their faith with few restrictions and 
no repercussions. But too many other Vietnamese people are not.
    Our message to the Government of Vietnam has been clear and 
consistent. We appreciate and affirm the steps they have taken towards 
expanding freedom, both economic and religious. From allowing the 
growth of many religious groups, to permitting the opening of a 
Protestant seminary in Ho Chi Minh City last year, to the recognition 
of Cardinal Man as a new Cardinal in the Catholic Church, Vietnam has 
shown some signs of progress. Folk religion is also making a comeback. 
However, serious problems remain, and we have urged Vietnam to end its 
ongoing violations of religious freedom. If it does not, Vietnam has 
been cautioned repeatedly that it faces possible designation as a 
``Country of Particular Concern'' (CPC) under the International 
Religious Freedom Act. We are continuing to monitor the situation 
closely as we undertake the CPC review process.
    Compared with some points in recent decades, when hundreds of 
religious leaders were imprisoned, others were executed, and much 
religious activity throughout the country was brutally suppressed, 
conditions for religious believers in Vietnam have certainly improved. 
But significant problems remain, and there has been deterioration in 
some areas in recent years. We must cultivate and encourage the 
positive trends, while understanding that Vietnam stands at a 
proverbial crossroads, and it is incumbent on the leadership of Vietnam 
to decide to take their country on the path towards openness, 
prosperity, order, and liberty.
    Many of Vietnam's leaders are quite mindful of their history and 
their current challenges. Some described to me the relative 
unfamiliarity with which they regarded religious belief and attempted 
to place the question of religious freedom in the context of an 
evolving communist state. These considerations are revealed by some of 
the Vietnamese Communist Party's activities last year. For example, the 
State Departments recent Report to Congress on the Government of 
Vietnam's Progress Toward Improved Human Rights For the Period December 
2002-December 2003 observed that ``the 7th Party Plenum passed new 
resolutions on religion and ethnic minorities that acknowledge the need 
for the GVN and CPV to respect human rights and improve conditions for 
appropriate enforcement of the law. However, we question aspects of the 
Plenum's resolutions on religion, which seem to indicate an intention 
to further control religious organization and suppress unauthorized 
religious activities.'' [I would like to submit a copy of this report 
for the record.]
    In discussing such matters with certain Vietnamese leaders, they 
often contend that some religions are ``new'' to Vietnam and receive 
hostile treatment because they are unfamiliar. I usually reply that I 
do not find this argument persuasive, in part because these same faiths 
have been present in Vietnam longer than the Communist Party.
    I understand that this hearing is addressing the matter of trade 
and human rights in Vietnam. Any visitor to Vietnam cannot help but be 
impressed, as I was, by the growing prosperity and thriving commercial 
sector in many urban areas. Deputy Assistant Secretary Daley will share 
some of the economic figures characterizing this burgeoning growth, and 
they are remarkable. Increased trade and economic expansion have 
certainly brought many benefits to Vietnam and have the potential to 
bring much more good.
    How does this relate to the questions of human rights, particularly 
religious freedom? As we contemplate Vietnam's current situation, I 
believe that a philosopher well known to you, Michael Novak, who is 
regarded as a subtle and profound thinker on freedom and its many 
facets, might offer some insights. Describing what he calls the 
``ecology of liberty,'' Novak has argued that a well-ordered society 
must stand on three pillars of freedom: ``free in its polity, free in 
its economy, and free in the realm of conscience and inquiry.''
    Vietnam continues to expand in the realm of economic freedom, and 
this is no small achievement. But expanding economic freedoms must be 
accompanied by expanding freedoms in other areas, religious freedom 
being a principal concern. We appreciate Vietnam's desire to become a 
member of the World Trade Organization (WTO). WTO membership requires 
adherence to rigorous provisions for economic standards and rule of 
law. We are encouraged at Vietnam's stated intention to undertake these 
commitments. In a similar vein, we will continue to encourage Vietnam 
to uphold its international commitments on human rights and religious 
freedom, such as the International Covenant on Civil and Political 
Rights, to which Vietnam is a party.
    Our challenge, and our intention, is to take a sophisticated, 
balanced approach that encourages the growth of freedom in its many 
dimensions while opposing threats to freedom and abuses of human 
rights. We must work to strengthen and encourage voices of reform and 
openness, while condemning actions of intolerance and repression.
    I note that today is the birthday of Abraham Lincoln, and I would 
like to close with a quote from him that conveys well the place of 
human rights in American foreign policy. Lincoln insisted that the 
principles embodied in our Declaration of Independence ultimately 
promised ``liberty not alone to the people of this country, but hope to 
the world for all future time.'' And so it is with religious freedom. 
It is not the exclusive birthright of Americans, but a universal hope 
of all people, including the people of Vietnam.

    Senator Brownback. Very good, Ambassador, that forwards our 
discussion.
    Mr. Daley.

STATEMENT OF MATTHEW DALEY, DEPUTY ASSISTANT SECRETARY OF STATE 
    FOR EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Daley. Mr. Chairman, let me begin by thanking you for 
your personal interest and leadership in this question. You 
won't be surprised that my written testimony overlaps 
substantially with that of Ambassador Hanford. In my oral 
remarks I'll try to eliminate the duplication, but that gap 
shouldn't be taken as any lack of interest, but simply trying 
to compress the amount of time I'll consume here.
    As you know, sir, our bilateral relations with Vietnam have 
expanded dramatically in recent years. They encompass a diverse 
and complex set of issues, which range from achieving the 
fullest possible accounting for those Americans who are still 
listed as prisoners of war/missing in action from the Indochina 
conflict to current global concerns, such as combating 
terrorism, HIV/AIDS, or trafficking in persons.
    The Vietnamese Government is clearly interested in 
increasing its interaction with the United States, as is 
evidenced by the many visitors that we've had recently. I think 
it's fair to say the Vietnamese Government is also starting to 
become less monolithic. The legislature has begun to send draft 
laws back to the government for revision, the National Assembly 
is no longer simply a rubber stamp.
    Transparency is improving. A recent example would be the 
decision by Vietnam's Chief Justice, after a visit to the 
United States, that courts should now publish their decisions. 
Moreover, laws have to be published now before they take 
effect, and eventually this will be done online.
    While we welcome the positive developments that we've seen 
in terms of enhanced interaction with the Vietnamese on issues 
of mutual interest, we've repeatedly informed the government 
that improving respect for human rights and religious freedom 
is vital if our relationship is to further develop. And 
although the Government of Vietnam's human rights record 
remains poor and freedoms of religion, speech, press, assembly, 
and association are significantly restricted, in some respects 
Vietnam is today a less repressive society today than it was 5 
or 10 years ago.
    The administration acknowledges that a lot more has to be 
done. We think the Vietnamese have gotten the message that 
insufficient progress on human rights continues to strain our 
bilateral relationship, and we are committed to seeking 
tangible progress, and we think the long-term trend in Vietnam, 
their economic renovation policy that's been underway since 
1986, has helped the expansion of personal freedoms.
    Further integration into the international community 
through trade, high-level visits, and other devices has 
reinforced the positive trends, and we hope these will continue 
as Vietnam moves forward on its quest to be a prosperous and 
successful society.
    We believe that continued interaction by the U.S. 
Government and other American institutions in the private 
sector will play a pivotal role in the further expansion of the 
positive trends. It's our judgment that efforts to re-isolate 
Vietnam or punish it with new sanctions will prove 
counterproductive to our long-term goals and interests in 
Vietnam.
    One of the mechanisms to help achieve these other 
interests, and particularly in the area of human rights, 
involves trying to advance economic and legal reform through 
the promotion of greater transparency and the implementation of 
both law and policy. The Bilateral Trade Agreement with Vietnam 
has been a key catalyst for change, along with parallel reforms 
that have been undertaken by the World Bank and the IMF.
    While Vietnam is lagging behind in some of its Bilateral 
Trade Agreement commitments, enforcement remains too weak. 
Vietnam has made progress in opening markets to many American 
products. For example, Vietnam's national airline has begun 
purchasing Boeing aircraft and has signaled its intention to 
buy more. And although Vietnam is considering revisions to 
legislation-related intellectual property rights, its market 
remains relatively closed to American intellectual property 
industry products.
    Overall, implementation of the BTA helps to create a rules-
based system in Vietnam and will serve as a springboard for 
Vietnam's eventual entry into the WTO. Since the BTA took 
effect in December of 2001, bilateral trade has grown rapidly. 
After more than doubling in 2002, Vietnam's exports to the U.S. 
rose another 121 percent in the first 10 months of 2003 to 
almost $4 billion. The U.S. has become Vietnam's largest export 
market, and our exports to Vietnam has also risen steadily, 
increasing 151 percent in 2003 with aircraft sales leading the 
way, amounting to most of the $1.2 billion.
    For 2003, estimates of total two-way trade will probably be 
in the range of $6 billion. We expect trade to continue to 
increase, but the growth rate of the increase will slow, partly 
as a result of textile quotas that were put into place in 2003 
by the bilateral textile agreement. In December of 2003, we 
also signed a bilateral civil aviation agreement that will 
establish direct aviation ties and will contribute to overall 
development of closer economic and cultural ties.
    Senator, I think you're aware of the anti-dumping suits 
that we've had recently. We have imposed duties of between 36 
to 64 percent on the Vietnamese exports of catfish to the 
United States, and last month the Commerce Department announced 
the initiation of anti-dumping investigations on imports of 
shrimp from a number of countries, including Vietnam. We'll 
have both preliminary findings of that investigation in June 
with final determinations to be made in late summer and early 
fall.
    We're strongly supportive of Vietnam's decision to join the 
WTO and to adopt WTO provisions as a basis for its trade. They 
now have to demonstrate that they're prepared to undertake the 
commitments that are needed to be a WTO member. We think 
Vietnam's implementation of a market-based trading system based 
on WTO principles of transparency and continued pursuit of 
structural reforms should accelerate the development of the 
private sector and enhance the rule of law and improve the 
atmosphere for progress in democracy and human rights.
    There's one minor example I might note that access to some 
international broadcasting is largely restricted to those who 
have the means to afford shortwave radios or televisions, and 
as prosperity increases a far greater proportion of the 
Vietnamese population will be able to access this kind of 
international, unfiltered sources of information.
    Finally, Mr. Chairman, if I may, with reference to your 
interest in the refugee population in the Philippines, this is 
a subject that has been under active and intensive review in 
the administration in the past few months. It's my sense that 
we're getting very close to decisions on this topic, and I 
would offer one of my colleagues from the Population, Refugee, 
and Migration Bureau, Kelly Ryan, to brief you on our current 
thinking and the new departures I think that will be 
forthcoming in the very near future. Perhaps certainly next 
week, if it would be convenient for you, she would be prepared 
to address that topic. Thank you, sir.

    [The prepared statement of Mr. Daley follows:]

 Prepared Statement of Matthew P. Daley, Deputy Assistant Secretary of 
                State for East Asia and Pacific Affairs

    Bilateral relations between the United States and Vietnam have 
expanded dramatically in recent years, encompassing a diverse and 
complex set of issues. They range from our ongoing efforts to achieve 
the fullest possible accounting for those Americans still listed as 
POW/MIA from the Indochina conflict to global concerns such as 
cooperating on counter-terrorism to combating scourges such as HIV/AIDS 
and trafficking in persons. The Vietnamese Government is clearly 
interested in increasing its interaction with the United States, as 
evidenced by the number of senior Vietnamese visitors who have traveled 
to the United States in the past six months alone. During this time, 
the Ministers of Trade, Planning and Investment, Foreign Affairs, and 
Defense, as well as the Deputy Prime Minister, traveled to the United 
States and exchanged views on how to move our bilateral relations 
ahead. Last November, the first U.S. Navy ship visited a Vietnamese 
port since the end of the Indochina conflict, yet another example of 
how our bilateral relations have evolved since the normalization of 
relations just 9 years ago.
    The Government of Vietnam is starting to become less monolithic. 
The legislature has begun to send laws back to the government for 
revision--the National Assembly is no longer just a rubber stamp. 
Transparency is improving, as evidenced by a decision by Vietnam's 
Chief Justice, following his trip to the United States, that the courts 
should begin to publish their decisions. Moreover, laws now must be 
published before they take effect, and eventually this will be done on-
line.
    While we welcome the positive developments that we have seen in 
terms of enhanced interaction with the Vietnamese on issues of mutual 
interest, we have repeatedly informed the government that improving 
respect for human rights and religious freedom is vital if our 
relationship is to further develop. Although the Government of 
Vietnam's human rights record remains poor and freedoms of religion, 
speech, the press, assembly, and association are significantly 
restricted, in some respects Vietnam is a less repressive society now 
than ten, or even five, years ago. Our Embassy reports that Vietnam has 
made progress in the areas of individual freedoms, people's control 
over their lives, and expanded freedom of religion.
    The administration's concerns about human rights abuses in Vietnam, 
including violations of religious freedoms, are discussed in detail in 
our annual country reports on human rights practices (the latest one 
will be released in a few weeks) and the annual country report on 
international religious freedom. These reports are compiled based on 
active monitoring and reporting from our Embassy in Hanoi and Consulate 
General in Ho Chi Minh City, as well as input from a wide variety of 
NGOs, media reports and other sources.
    The U.S. Mission engages the Government of Vietnam (GVN) on human 
rights issues at all levels. Mission officers travel throughout the 
country to investigate allegations of abuses, and virtually every 
Mission officer and senior USG visitor to Vietnam raises human rights 
in their meetings with GVN officials. From the Ambassador on down to 
the first tour junior officer, we explain international concerns and 
basic human rights standards to Vietnamese officials from the local 
level to the highest ranks of the GVN. In Washington, Department 
officials from all bureaus repeatedly stress human rights concerns to 
Vietnamese interlocutors. Our calls for the release of political 
prisoners, ICRC access to detainees, improved transparency and due 
process in the criminal justice system, NGO access to the central 
highlands, and our constant diplomatic pressure have produced 
noticeably greater GVN willingness to engage in frank discussions on 
human rights and religious freedom. We note that the GVN has improved 
its processing of Montagnard emigration cases by clearing up a 
significant backlog.
    However, more needs to be done. The Vietnamese have gotten the 
message that insufficient progress in human rights continues to 
constrain bilateral relations. A summary report of Vietnam's progress 
on human rights since our last formal human rights dialogue was 
submitted to Congress in December 2003. This report outlines in more 
detail our human rights policy toward Vietnam and states that we have 
not scheduled another formal dialogue due to insufficient progress on 
our key human rights concerns.
    In regard to religious freedom, of particular concern are 
allegations that local officials continue to force Protestants, 
especially in ethnic minority areas, to renounce their faith. We remain 
concerned by reports of the closures of unregistered house churches in 
the central highlands. We have advised them that Vietnam's record is 
under close scrutiny. We have urged specifically that the Prime 
Minister issue a clear-cut decree banning forced renunciations of faith 
and prescribing punishment for officials engaged in such behavior. We 
have also urged that the government speed up the process of 
registration of churches in minority areas, which it now appears to be 
doing.
    We are committed to seeking tangible progress on human rights and 
religious freedom, and we believe the long-term trend in Vietnam since 
the ``doi-moi'' (renovation) economic policy initiatives of 1986 has 
been toward the expansion of personal freedoms. Further integration 
into the international community--through trade, interaction, high 
level visits and other channels--has reinforced these positive trends 
and will continue to do so as Vietnam continues on its quest to be a 
prosperous, successful society.
    Continued interaction by the U.S. Government and other American 
institutions will continue to play a pivotal role in the further 
expansion of these positive trends. Efforts to re-isolate Vietnam or to 
``punish'' it with new sanctions will likely prove counterproductive to 
our long-term goals and interests in Vietnam.
    One of our long-term goals is to stimulate growth and development 
in Vietnam through economic and legal reform and through promotion of 
greater transparency in the implementation of law and policy. The 
Bilateral Trade Agreement (BTA) has become a key catalyst for change in 
Vietnam, along with parallel reform programs undertaken by the World 
Bank and the IMF. While Vietnam is lagging behind in some of its BTA 
commitments and enforcement remains weak, Vietnam has made progress in 
opening its markets to many U.S. products. For example, Vietnam's 
national airline has begun purchasing Boeing aircraft and has signaled 
its intention to buy more. Although Vietnam is considering revisions to 
legislation related to intellectual property rights, its market remains 
relatively closed to U.S. intellectual property industry products. 
Overall, implementation of the BTA helps to create a rules-based system 
in Vietnam and will serve as a springboard for Vietnam's eventual entry 
into the WTO.
    Since our Bilateral Trade Agreement (BTA) with Vietnam took effect 
in December 2001, bilateral trade has grown rapidly. After more than 
doubling in 2002, Vietnam's exports to the U.S. rose another 121 
percent in the first ten months of 2003 to almost $4 billion. The U.S. 
has become Vietnam's largest export market. U.S. exports to Vietnam 
have also risen steadily, increasing 151 percent in 2003, including 
aircraft sales, to $1.2 billion. For 2003, estimates are that total 
two-way trade was about $6 billion. While we expect trade to continue 
to increase, the growth rate is likely to slow, partly as a result of 
the textile quotas put into place in 2003 by the bilateral textile 
agreement. In December 2003, we signed a bilateral civil aviation 
agreement that will establish direct aviation ties and will contribute 
to the overall development of closer economic and cultural ties.
    Another element of increased trade has been anti-dumping suits. In 
summer 2003, the International Trade Commission determined that 
Vietnamese exports had caused injury to the U.S. catfish industry, and 
the Department of Commerce set duty levels between 36 and 64 percent. 
On January 21, 2004, Commerce announced the initiation of anti-dumping 
investigations on imports of shrimp from various countries, including 
Vietnam.
    Our deepening economic, commercial and assistance relationship with 
Vietnam promotes civil society, encourages economic reform, draws the 
country further into the rules-based international trading system, and 
promotes interests of American workers, consumers, farmers, and 
business people.
    We remain strongly supportive of Vietnam's decision to adopt WTO 
provisions as the basis for its trade regime. The Vietnamese Government 
must now demonstrate that it is prepared to undertake the commitments 
that are necessary to become a WTO member. Vietnam's implementation of 
a rules-based trading system based on WTO principles of transparency 
and its continued pursuit of structural economic reforms should 
accelerate the development of the private sector, enhance the rule of 
law, and improve the atmosphere for progress in democracy and human 
rights.
    Our bilateral relationship is positioned to grow in positive 
directions. The issues that we address together show that both of our 
countries are now concentrating on our future rather than simply 
looking to the past. We have productive discussions with the Vietnamese 
on counter-terrorism and counter-narcotics as well as HIV/AIDS, a major 
foreign policy objective. We have increased cultural and educational 
exchanges. Only a few days ago, the Vietnamese Government extended an 
official invitation to the Peace Corps to come to Vietnam to discuss a 
country program. The overall relationship--economic, political, and 
cultural--is improving. The linkages between our two countries have 
strengthened due to humanitarian programs, academic and cultural 
exchanges, and increased dialogue on strategic issues.
    Vietnam is aware of our views on its need to live up to its 
international commitments on human rights and religious freedom, as 
well as to continue to take all necessary steps to account for those 
who remain listed as POW/MIA, and finally to meet its obligations under 
the BTA. That said, we believe that our mutual interests will continue 
to lead our relationship in the right direction.

                               __________

   Report to Congress on the Government of Vietnam's Progress Toward 
    Improved Human Rights For the Period December 2002-December 2003

Introduction and Summary
    On November 8, 2002, the Department of State's Bureau of Democracy, 
Human Rights and Labor held the 10th round of the U.S.-Vietnam Human 
Rights Dialogue in Washington. The Department of State has been 
dissatisfied with the lack of progress from these dialogues in general 
and specifically with the lack of progress over the past year. During 
the 2002 dialogue we made clear to the Government of Vietnam (GVN) that 
if we are to continue these dialogues, the discussions must lead to 
concrete results. The Department specifically described the 
requirements for this report, suggested specific actions that the GVN 
could take to illustrate a commitment to progress in key human rights 
areas, and stressed the need for substantive progress. Due to the lack 
of concrete results from the last dialogue, we have not scheduled the 
next round.
    The areas of progress and/or lack thereof made by the GVN, as 
stipulated by Congress, are summarized below:

  1. Commercial and criminal codes, including Decree 31/CP

  2. Release of political and religious activists and cessation of 
        surveillance/harassment

  3. Ending official restrictions on religious activity

  4. Freedom of the press

  5. Prison conditions and transparency in the penal system

  6. Rights of indigenous minority groups

  7. Worker rights and cooperation with the ILO

  8. Access to persons eligible for processing as refugees or 
        immigrants


1. Commercial Codes, Criminal Codes and Administrative Detention Decree 
        31/CP
    The GVN is working on bringing its commercial code into compliance 
with international standards as part of the implementation of the U.S.-
Vietnam Bilateral Trade Agreement (BTA). Vietnam has developed new laws 
on foreign investment and enterprise development, a new law on the 
promulgation of laws that should provide more transparency, and key 
amendments to the commercial law to bring Vietnam's legal and 
regulatory structure closer in line with it's BTA commitments. 
Unfortunately, the 1999 criminal code remains unchanged, and we have 
seen no progress in this area. Individuals remain detained under 
Administrative Detention Decree 31/CP, including Thich Tue Sy, Thich 
Nguyen Ly, Thich Thanh Huyen, and Bui Minh Quoc whose cases we have 
raised specifically with the GVN over the course of the year. The GVN 
reported in the November 2002 dialogue that other countries have joined 
us in expressing concern over Decree 31/CP and that they intend to 
review its usefulness. We are not aware of any progress in this review 
to date.

2. Release of Political and Religious Activists and Ending 
        Surveillance/Harassment
    We have seen no progress in this area although during the year, the 
GVN twice provided information on political and religious detainees of 
concern in response to lists sent by the USG. Over the course of the 
year, new prison sentences have been imposed on Pham Hong Son and Tran 
Dung Tien for peacefully expressing their views, as well as three 
relatives of imprisoned Catholic priest Father Nguyen Van Ly-Nguyen Thi 
Noa, Nguyen Truc Cuong, and Nguyen Vu Viet-for having expressed concern 
about his condition and sharing information with outside observers. 
U.S. Embassy and Consulate General observers were barred from observing 
any of these trials. In addition Nguyen Vu Binh, Pham Que Duong, Dr. 
Nguyen Dan Que, and Pham Van Tuong (also known by his former religious 
name Thich Tri Luc) remain in investigative detention awaiting 
arraignment. We remain concerned over the continued surveillance and/or 
harassment of activists such as Nguyen Lap Ma, Thich Huyen Quang, Thich 
Quang Do and others. Thich Huyen Quang of the unofficial Unified 
Buddhist Church of Vietnam (UBCV) enjoyed increased freedom of movement 
following his March 2003 trip to Hanoi for surgery for skin cancer and 
held an unprecedented meeting with PM Khai in April. His deputy Thich 
Quang Do, who had been detained in his pagoda in Ho Chi Minh City since 
June 2001, was released in June 2003. However, in October 2003, 
following a UBCV assembly that was not authorized by the Government, 
Vietnamese authorities harassed a UBCV delegation that included 
Patriarch Thich Huyen Quang and deputy Thich Quang Do, and sentenced 
three senior UBCV monks (Thich Tue Sy, Thich Nguyen Ly, and Thich Thanh 
Huyen) to 24 months of administrative detention.
    We remain concerned about the prison sentence given to Father 
Nguyen Van Ly in 2001, though it was reduced from a total of 15 years 
to 10 years in prison, followed by two years house arrest, in July 
2003. In September 2003, Father Ly's two nephews and niece mentioned 
above were sentenced to five, four, and three years imprisonment 
respectively. On November 28, 2003, the GVN reduced their sentences; 
the niece who had been placed under house arrest is free, and the 
nephews should be released by February.

3. Ending Official Restrictions on Religious Activity
    There has been no progress in this area. We remain concerned by the 
detention of numerous religious leaders, as well as church closings, 
attempts at forced renunciations of faith, and imprisonment of 
Protestants in the central highlands and Northwest Highlands. We note 
that the 7th Party Plenum passed new resolutions on religion and ethnic 
minorities that acknowledge the need for the GVN and CPV to respect 
human rights and improve conditions for appropriate enforcement of the 
law. However, we question aspects of the Plenum's resolutions on 
religion, which seem to indicate an intention to further control 
religious organization and suppress unauthorized religious activities.
    The Government of Vietnam recognizes only six religions: Buddhist, 
Protestant, Catholic, Cao Dai, Hoa Hao, and Islam. An official 
registration process is required for these religions, as well as 
individual religious denominations and congregations. The GVN continues 
to restrict the activities of several religions or denominations, 
including independent Buddhists, Protestants, Cao Dai, Baha'i and Hoa 
Hao who lack recognition or have chosen not to affiliate with 
recognized groups. Other groups, such as Seventh-Day Adventists, 
Jehovah's Witnesses and Baptists operate in some provinces with fewer 
restrictions. GVN officials suggest these bodies may have opportunities 
to officially register in the future. The USG continues to express 
great concern at reports of harsh treatment of unregistered ethnic 
minority Protestants in the Northwest and central highlands. Reports 
from these provinces indicate that many Protestants face pressures to 
renounce their faith, closure of unregistered churches, and the arrest 
or harassment of pastors. We received credible reports of the deaths in 
custody of one Hmong Protestant leader in Lai Chau Province in July 
2002, and another Hmong Protestant leader in Ha Giang Province in July 
2003. We also received credible reports of an incident on December 29, 
2002, in Lau Chau Province, in which a group of what appeared to have 
been security agents allegedly broke up a church service of Hmong 
Protestants with some type of pepper spray or tear gas and confiscated 
their worship materials. The Department of State continues to press the 
GVN to investigate these reports, to take measures to end any campaign 
of this nature, and to bring the violators to justice.
    The GVN concurred with the Vatican's appointment of new Catholic 
Bishops and did not object to the elevation of Cardinal Pham Minh Man 
in Ho Chi Minh City. Several observers have noted that the Catholic 
seminaries are allowed increased international contact. In February, a 
Protestant seminary was allowed to open in Ho Chi Minh City.

4. Freedom of the Press
    Freedom of the press and expression in Vietnam remained limited 
this year. Several dissidents listed above were arrested or sentenced 
this year for peacefully expressing their views on the Internet or via 
e-mail. We remain concerned by the GVN regulations on Internet use 
promulgated by the Ministry of Culture and Information. We note that 
the local press has sought to expand reporting, but have been warned by 
senior officials against reporting too critically or extensively, 
including on corruption issues. There appears to have been no essential 
change in treatment of the foreign press or in the freedom of movement 
of the Vietnamese or foreign press. Foreign news, including VOA and CNN 
are available to Vietnamese by short-wave radio and satellite 
television, but these mediums are beyond the price range of most 
Vietnamese. Some foreign radio stations and web sites are blocked, 
including Radio Free Asia and the Philippines-based missionary station 
Far East Broadcasting Corporation, although some broadcasts are audible 
in Vietnam.

5. Prison Conditions, Transparency and the UN Working Group on 
        Arbitrary Detention
    It is difficult to determine whether there has been any substantive 
change in prison conditions in Vietnam. Embassy officers were allowed 
to visit a prison in 2002, but requests during 2003 have not been 
accommodated. One foreign diplomat was allowed to visit a prison, and 
described conditions as not unduly harsh given Vietnam's economic 
situation. Conditions appear to vary by prison. Some imprisoned 
activists are reportedly held in solitary confinement. We have 
encouraged the GVN to cooperate with the ICRC on prison visits with the 
goal of improving conditions and transparency in the detention system. 
We also continued to urge the GVN to implement the recommendations of 
the UN Commission on Human Rights' Working Group on Arbitrary Detention 
that remain largely neglected and to issue a new invitation to this UN 
mechanism as well as others such as the UN Commission on Human Rights' 
Special Rapporteur on Religious Intolerance.

6. Respecting the Rights of Indigenous Minorities in the Central and 
        Northern Highlands
    This is another area where we have seen no improvement, although 
the GVN appears to be making efforts to address some land and economic 
problems of ethnic minorities. Officials continue to restrict severely 
freedom of assembly and religion in the Central and Northwest Highlands 
where there are indications of harsh treatment and religious repression 
of ethnic minority Protestants. The GVN uses the separatist agenda of a 
relatively small number of ethnic minority leaders as a rationale for 
violating civil and political rights in ethnic minority regions. The 
GVN somewhat improved international access to the central highlands 
over the past year, however, all diplomatic visits to sensitive regions 
remain supervised and controlled. We will continue to monitor closely 
developments in regions of concern.

7. Respecting the Basic Rights of Workers and Cooperating with the ILO
    We have seen some improvement in worker rights in recent years in 
Vietnam, which is due, in part, to steady increases in GVN cooperation 
with the ILO. The ILO officially opened an office in Hanoi on February 
17, 2003 and has been expanding its operations. The U.S. Department of 
Labor is working on six projects with Vietnam to improve labor 
conditions, including an HIV/AIDS workplace-based education project. 
The ILO and U.N. Development Program are cooperating on a large multi-
year technical assistance program to strengthen labor law 
implementation. In addition, the 2003 ILO Committee of Experts Report 
states that the Government of Vietnam has made strides in establishing 
a state labor inspectorate and to implement labor inspection training 
(2003 ILC, 91st Session, C. 81). We believe, however, that more needs 
to be done if Vietnam is to protect adequately its workers as the 
economy grows. We have urged the GVN to respect freedom of association, 
the right to organize and bargain collectively in trade unions, as well 
as to continue to work actively to eliminate the worst forms of child 
labor. We are closely monitoring the implementation of Vietnam's new 
labor law that went into effect on January 1, 2003, and its effect on 
worker rights. The old law, drafted with a central role for the 
Communist Party, was not adequate for a modernizing economy and was in 
many cases ignored. Effective implementation of the new labor law will 
be essential for the modernization of Vietnam's labor relations system.

8. Access to Persons Eligible for Processing as Refugees or Immigrants
    Cooperation on refugee caseloads showed progress this year, 
although our access to applicants is still restricted by long-standing 
GVN-USG agreements that require GVN permission prior to interview. We 
routinely communicate directly with refugee applicants by mail, phone, 
fax, and telex. This year has also seen passport issuances for a few 
long-standing Montagnard cases. Less than 30 cases in various refugee-
processing categories remain to be processed. Within this group a few 
have not been processed because they still do not have passports, 
although the number is decreasing slowly. The others have not completed 
processing because the applicants themselves have failed to actively 
pursue their cases. Most Vietnamese applicants for immigrant visas to 
the U.S. receive their Vietnamese passports and are processed with few 
problems. However, some Montagnard immigrant visa applicants face 
difficulty obtaining Vietnamese passports. In particular, one of the 
first Visas-93 Following-to-Join cases for families of Montagnards 
resettled out of Cambodia in 2002 is having difficulty getting 
passports issued.

Conclusion
    We did not hold a human rights dialogue with Vietnam this year, 
because steps taken were inadequate and did not constitute progress 
from the last dialogue. In the November 2002 dialogue Ambassador-at-
Large for International Religious Freedom John Hanford and Deputy 
Assistant Secretary for Democracy, Human Rights and Labor J. Scott 
Carpenter stressed the need to see results on religious freedom and 
human rights if the dialogue is to be continued. Both stressed the 
importance of greater access and transparency on many of these issues 
such as the need to open trials, provide more information and access to 
sensitive regions to the international community and allow human rights 
NGOs to work in Vietnam. The Department of State will remain vigilant 
in its monitoring of the human rights situation in Vietnam and will 
continue to seek tangible progress in improved human rights before any 
determination is made about future dialogues.

    Senator Brownback. Thank you very much, Secretary, and I 
look forward to hearing from you. Part of the frustration on 
this one has been, number one, these people have been hanging 
out there for a long period of time.
    Mr. Daley. We're talking decades.
    Senator Brownback. Decades. Number two, we've got a high 
refugee number, and we're nowhere near filling it, and we keep 
dropping the refugee number, and we're only bringing in about 
20,000 a year, and I think we're approved with budget for up to 
50, and if you roll in the budget from prior years, you're even 
up higher numbers, so we've got plenty of--the funding is 
there, the authority is there, the population is there, and 
this is not a--this is not a terrorist population that a lot of 
people are reviewing and saying, well, we've got to be extra 
careful now. Well, I think they've sat there long enough, that 
we've been careful enough, so hopefully we can do--can move on 
that. We would appreciate it if you could.
    Mr. Daley. We will, sir.
    Senator Brownback. Good. Secretary Daley, I want to ask 
you, in particular I've noted, as you have, the impressive 
progress in a number of fields for Vietnam, particularly given 
the difficult relationship we've had with them in recent 
decades. It is impressive, it's impressive what I saw. It's a 
glaring hole on the human rights area. They are not making the 
progress there. They're making some progress there.
    Can we--are we--are you seeing any progress or commitments 
on their parts to truly address the human rights issues as we 
try to build this relationship closer?
    Mr. Daley. What we're missing, I believe, Mr. Chairman, is 
sustained, comprehensive and even process--progress--in the 
different areas of Vietnam. I think we can point to certain 
areas where there's been progress, but in other areas, even 
when we get the right declaratory policies from Hanoi, we don't 
always see those policies being implemented by local officials, 
and the disparities in implementation from one part of the 
country to another are fairly obvious.
    And so it's difficult, I think, sometimes to make 
judgements about the country as whole. Over time, especially if 
we're talking years rather than weeks and months, I think there 
has been real progress, and we're pressing this agenda at every 
level at which we have diplomatic contact, whether it's the 
newest, youngest officer in the Foreign Service who's working 
the visa line or the most senior levels of our government. But 
it's very uneven. I think Ambassador Hanford would have some 
additional insights on that point.
    Senator Brownback. Ambassador?
    Mr. Hanford. Well, we're encouraged, as I mentioned 
earlier, that there have been improvements at least during the 
year and a half I've been there in terms of the recent release 
of some religious prisoners. But, as you know, there are many, 
including some prominent ones such as Father Ly, that remain 
behind bars. In his case, I'm told in isolation and perhaps in 
failing health, and I have that on pretty good authority. We're 
pretty worried about him.
    At the same time, we hear, we continue to hear of forced 
renunciations of faith, of church closings or refusal to reopen 
those churches. And so we've been very clear we want to see 
people in prison simply for the practice of their faith 
released, but we also want to see the systemic problems 
addressed as well, and we are--we're continuing to talk with 
them very regularly about this.
    Senator Brownback. I just would say to you gentlemen, 
particularly Secretary Daley, where you're looking at the 
broader portfolio of this, what I said to the Vietnamese 
officials I firmly believe is the nature of it, we've got a 
growing relationship, they've got double the trade coming this 
way than we've got going that way. This is a pretty good--this 
is a pretty good deal for Vietnam. They're growing, their 
population is increasing, per-capita income, that's a good 
thing, I'm supportive of that, delighted to see it. I don't 
want the relationship to go backward.
    But they hold the keys in their own hand as to how fast 
this will move forward, and they're starting to develop a 
dedicated bloc within the Congress opposed to this relationship 
growing on the basis of human rights and religious freedom in 
particular, and it's one of those that as a society develops 
and grows, it clearly needs to grow in its own rights for its 
own people.
    And so this isn't something we seek to do as an opposition 
to the Vietnamese Government at all, but if you're going to 
continue this relationship and particularly focus on the 
economic issue, you will find the Congress, if Vietnam doesn't 
address these issues, you'll find the Congress finding ways to 
try to impact this on the issues of human rights, and 
particularly religious freedoms, and it doesn't need to be that 
way.
    Vietnam will choose, and if it believes that this is not 
something that the Congress will sustain or it's kind of a 
fleeting thought, and we just kind of ride it out, or dollars 
are the only things that will drive us, those are all false 
assumptions. And I know this is being kicked around in the 
administration and its view of this, but this will create a 
major impediment if it's not addressed, and I think it's pretty 
simple to address.
    Hopefully your office and Ambassador Hanford's office is 
conveying to them systemic changes, like the ability to open up 
churches. I'm glad you're providing a prisoners list, but in a 
way, that's just--that is just a very narrow issue. That's 20, 
that's 40 people, when you've got millions that are being 
impacted or you have--I don't know what you said your numbers 
were--there was 170,000 and two churches. That's just--you're 
impacting hundreds of thousands of people here, and we need to 
get the systemic changes where they allow people to open up 
churches, where they allow people to go to seminaries.
    What they're doing to the Buddhist community, where really 
restricting the travel of the leadership and the organizations, 
I just, I don't understand why that would take place. So I hope 
the administration continues to make this a front-and-center 
issue in their relationships and growing with Vietnam, 
particularly as it comes up in the economic dialogue, because I 
know that's one of particular concern there.
    Any further thoughts on that, Secretary Daley or Ambassador 
on that particular point?
    Mr. Daley. Mr. Chairman, you could have written my longer 
testimony. I mean, there's nothing you've said with which I 
would take exception.
    Senator Brownback. Ambassador?
    Mr. Hanford. I agree with you, Mr. Chairman, that the 
measures which the Government of Vietnam can take in order to 
address some of the most obvious and egregious problems are 
simple to identify and seemingly simple to implement. When I 
started in this job, things weren't nearly this bad, or they 
were just beginning to be so, particularly in the central 
highlands and the northwest highlands. If they can go through 
and close down hundreds of churches in a short period of time, 
then they can reopen those hundreds of churches in a short 
period of time, and this is what we're asking them to do.
    Senator Brownback. And you provide specifics to them of, 
okay, we want to do better on religious freedom, what do you 
think we should be doing as suggestions. And we don't want to--
we don't dictate in their system what they do, we try to get 
people to open up a society, you provide those to them?
    Mr. Hanford. We've been very clear in terms of the 
specifics that need to be addressed. We've done that 
repeatedly. We first did this when we had our last Human Rights 
Dialogue. I presented in writing the specifics that I felt were 
most important to be addressed, and those have been the 
benchmarks that we have worked on since that time.
    Senator Brownback. Ambassador, do you think that all the 
non-economic policy options have reasonably been exhausted to 
address what seems to be particular severe violations of 
religious freedom? Are there other tools that can be used, non-
economic?
    Mr. Hanford. Well, I'm committed to doing everything I can 
to work with the government for progress. Our goal is not to 
impose a designation or sanctions. Our goal is to see greater 
religious freedom, and that's why I've given so much time 
personally to Vietnam, as has my staff, and we will continue to 
in the coming weeks.
    I think the best thing we can give them is respectful but 
clear indications and even warnings of where our most serious 
concerns are, and then to have very substantive dialogue on 
those problems so that there's no chance for misunderstanding. 
That's the approach that I have been taking and will continue 
to take, and I think they deserve that, and we're giving them 
that.
    Senator Brownback. What if the track does not change that 
they're on? What if they continue to say, well, fine, I hear 
your suggestions, but no action response, or even you continue 
to get more and more closings, more and more restrictions?
    Mr. Hanford. Right. Well, as you know, we have the--we have 
the whole question of CPC status coming up. This typically 
happens within a few weeks or a month or two after the issuance 
of the international religious freedom report. No decision has 
been made on this yet and this--these issues that you raise 
here will be under serious consideration as we approach this 
round of decision-making.
    Senator Brownback. Good. Gentlemen, thank you very much. I 
appreciate you coming up, and I appreciate your work on a vital 
relationship.
    Now I have our second panel. It will be Commissioner 
Michael Young. He's with the U.S. Commission on International 
Religious Freedom here in Washington, D.C., and I look forward 
to his presentation.
    Mr. Young, welcome back, glad to see you again. You heard 
the first panel and the thought put forward there. I'd like to 
hear your thoughts and testimony on the state of religious 
freedom or lack thereof in Vietnam.

 STATEMENT OF MICHAEL YOUNG, COMMISSIONER, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Young. Mr. Chairman, thank you very much as always for 
this opportunity to testify, and in particular for your 
interest in this subject and the assurance you give us of the 
interest of the Senate in this. We appreciate that as do the 
people of Vietnam.
    I have longer testimony, but in the interest of time, I'll 
ask that that just be submitted for the record and just 
highlight a few----
    Senator Brownback. Without objection.
    Mr. Young (continuing).----points. It's entirely possible I 
could simply stop here, Mr. Senator, and tell you that I agree 
with everything that you've said in this hearing today, as I 
think our commission does. You would probably be slightly 
disappointed in that, so let me elaborate just a little bit if 
I may.
    Senator Brownback. Good.
    Mr. Young. As has been well articulated today, 
relationships with the U.S. and Vietnam are deepening 
enormously. We will probably approach $6 billion in trade. We 
will assume, if we are not already, become Vietnam's largest 
trading partner. The relationship has deepened on other levels 
as well. I'm told today that the commander of the Pacific fleet 
is actually in Hanoi today as we hold these hearings, and so on 
a variety of different fronts we have been working and working 
closely with the Vietnamese Government, and our countries have 
a very different relationship than they did not very long ago.
    There seems an imbalance in that relationship though of 
exactly the kind that you defined, and this expansion and 
deepening of relationships in so many different other areas 
can't come at the expense of human rights. We were told when 
Congress passed the bilateral trade agreement in 2001 that the 
human rights situation would change in Vietnam and that this is 
therefore reason one should support that measure. I don't think 
we were told that it would change indeed but for the worse, and 
as I think has been articulated today, Ambassador Hanford said, 
as I listened to his testimony, when I started this job, things 
were not nearly so bad.
    In addition, the State Department's report to Congress of 
last year admitted to being ``disappointed'' by the lack of 
``concrete'' results in the case of Vietnam, and that is a 
concern. In the last 2 years, there's incontrovertible evidence 
that there have been crackdowns on religious leaders, 
imprisonment of free speech advocates and political reformers, 
expansion of control of virtually every religious community in 
Vietnam, including the Buddhists, the Catholics, the 
Protestants, the Hoa Hao, the Cao-Dai, all the religious 
groups.
    In that context, people have been imprisoned, placed under 
house arrest, churches by the hundreds have been closed, some 
destroyed, the number of church buildings, clergy, and 
seminaries are very tightly restricted and controlled. 
Religious adherents are discriminated against in a variety of 
different ways in terms of jobs, housing, promotions.
    In addition, the Government of Vietnam has intensified its 
crackdown of religions, particularly with respect to the ethnic 
minorities in the northwestern provinces, something that you 
know well. And there appears to be a systematic, ongoing 
campaign of forced renunciations. Those who refuse to renounce 
their religion are being harassed, beaten, imprisoned, and 
suffer loss of jobs and educational opportunities.
    All this--and as I say, we are not really alone in our 
assessment in this. The State Department reports themselves 
confirm this. It appears in that context that the real question 
is, what does one do about that? And while we are not 
suggesting the imposition of any particular sanctions of a 
major economic sort, we are stating rather clearly that under 
the statutory standard, it is hard to see how you do not 
designate Vietnam as a country of particular concern.
    The reason that designation is important, of course, is not 
merely the effect of designation, but the fact that, once 
designated, the statute requires that the State Department pay 
particular attention at the very highest levels to do something 
about that. Ambassador Hanford has suggested, and I know this 
to be the case that he's invested an enormous amount of time in 
this issue, it may be that that's not enough. It may be that if 
in fact one is seeing the progress move backwards, that one 
needs to think more systematically at even higher levels of our 
government about what to do about that.
    CPC designation is a flexible diplomatic tool. It doesn't 
require any particular action except the engagement and 
anticipates reaching an agreement with the government on 
concrete specific steps that can be taken, and that seems a 
minimum that the United States should be doing when it 
engages--gauges the Vietnamese Government. We do it in every 
other area. The U.S. Trade Representative Office does it, all 
the offices do it when dealing on the economic side. It seems 
unconscionable not to also be doing that on the human rights 
side. Perhaps unfairly, but I don't think entirely unfairly, 
pointed out a slight inconsistency in Mr. Daley's testimony.
    It seems to me that Vietnamese people deserve as much 
respect, consideration, and thought from the U.S. Government as 
do catfish and shrimp and that we ought to be thinking about 
things that can be done, and there are some things that can be 
done that are--that send a signal without harming the 
Vietnamese people in a way that makes clear to the government 
that this issue matters.
    For example, we have proposed that non-humanitarian aid be 
capped at the prior year's level. That's not a dramatic change, 
but it does send a signal. We have suggested that it is amazing 
that a government with which we have deep economic ties 
continues with impunity to broadcast from Radio Free Asia. How 
can they possibly do that and why can we possible tolerate 
that? Those sorts of things are all within the realm of 
possibility, and all do send the signal that this issue 
matters, that we are watching, and that we are measuring their 
performance in this area, just as the Commerce Department and 
others measure their performance so carefully in so many other 
areas.
    We also suggested that there are positive steps that can be 
taken. There could be expanded funds available for exchanges, 
exchanges between religious personnel of both countries, an 
expansion of the human rights dialogue to ensure that 
Vietnamese Government officials have an opportunity to come to 
the United States, meet with different people who can represent 
to them the positive benefits that come from a more open, 
vibrant dynamic society.
    And we also think that you can target many of those 
exchanges to include human rights activists, religious leaders, 
and others, who in turn would have both their credibility 
within their country and their knowledge and capacity to work 
with the Vietnamese Government itself expanded if they had the 
opportunity to come to the United States and to engage in 
dialogue of that sort.
    We also have some skepticism about the application of the 
Millennium Challenge Account. This is a laudable idea to 
encourage an expansion of democracy around the world. It does 
seem puzzling though in light of this what seems quite clear 
backwards movement on the part of the Vietnamese Government 
that they in fact from the very beginning seemed to be 
eligible, suggesting that there ought to be an examination, 
either of the way in which the eligibility criteria are being 
applied, or in the alternative, a re-examination of the 
criteria themselves. It's a little hard to imagine that the 
Vietnamese Government has earned this kind of a designation and 
this kind of an opportunity.
    Our country and Vietnam have been intertwined in a variety 
of ways for many years, some of them truly tragic. But we're 
only compounding the tragedy if we focus narrowly on the 
economic and security concerns and ignore the human rights and 
democracy dimensions. Indeed, I think if the CSCE process and 
the Helsinki accords and all that surrounded that teaches 
anything, it teaches the importance of keeping all of those on 
parallel tracks with emphasis on all three in equal measure.
    Indeed, if one looks at the effect of the CSCE and the 
Helsinki accords, one almost has to say that the greater impact 
was not found in the economic integration or even the security 
basket as much as it was found in the democracy and human 
rights basket of the CSCE process.
    From that perspective, we think it's possible to continue 
to build a strong relationship with Vietnam. Our commission is 
not recommending that that relationship be terminated in any 
way. Rather, we are urging that the government think at the 
highest levels about concrete steps that can be taken against 
the backdrop of concrete, specific benchmarks of behavior in 
terms of human rights.
    As Ambassador Hanford suggested, if you can close a church, 
you can open a church, and this can be done by the government, 
and in our judgment must be done, and that's why we think 
designation as a CPC is an essential step. It meets the 
statutory designation, it will focus the attention not only of 
the Vietnamese Government but our own government on steps that 
need to be taken, and in our judgment, at this stage are not 
being taken. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Young follows:]

  Prepared Statement of Michael Young, Chair, The U.S. Commission on 
                    International Religious Freedom

   PROTECTING RELIGIOUS FREEDOM IN VIETNAM: BALANCING INTERESTS AND 
                               PRINCIPLES

Introduction
    Mr. Chairman, distinguished members of the Senate, I want to 
commend you for holding this hearing on an important subject that 
deserves serious attention from Congress.
    The Commission on International Religious Freedom has followed 
events in Vietnam closely for the past several years. In its travels to 
Vietnam, the Commissioners and staff have found that over the last two 
years, already poor human rights conditions in Vietnam have 
deteriorated. Key dissidents were imprisoned or placed under house 
arrest. Churches have been closed and some destroyed. In addition, the 
Government of Vietnam has intensified its crackdowns on religious and 
ethnic minorities in the northwestern provinces and the central 
highlands-including ongoing campaigns of forced renunciations of faith.
    These actions underscore a deep imbalance in U.S.-Vietnamese 
relations. Since normalization of relations in 1995, U.S.-Vietnamese 
defense and trade relationships are moving forward at a dramatic pace. 
In these areas, we are building partnerships based on mutual interests.
    But beyond these partnerships lie principles. President Bush has 
eloquently stated that American foreign policy should ``stand firm for 
the non-negotiable demands of human dignity-the rule of law, freedom of 
worship, free speech--religious and ethnic tolerance--and equal 
justice.''
    Such principles are central to maintaining strong and long-lasting 
partnerships. They are central to American interests abroad. When it 
comes to Vietnam, the U.S. should adopt creative policies that support 
both our interests and our principles.
    The Commission hopes that a strong and consistent message can be 
sent to the Vietnamese Government. Our relationships cannot be built 
solely on economic ties or security cooperation. Continued violations 
of religious freedom and related human rights will slow down the 
expansion of U.S.-Vietnamese relations.

Little Substantive Change Since the BTA
    When the Bilateral Trade Act (BTA) was passed, there was hope that 
expanded economic ties would lead to improvements in Vietnam's human 
rights situation. Sadly, this has not happened. A recent estimate 
predicts that trade between the U.S and Vietnam will top $6 billion 
dollars by the end of this year. The U.S. is already Vietnam's largest 
trading partner.
    While our economic relationship has taken several large steps 
forward, in the area of human rights our relations have become 
stagnant, and even deteriorated.
    The Commission is not alone in its assessment. The European Union 
has also been very critical of Vietnam's human rights practices. The 
State Department, in a report to Congress last year, admitted to being 
``disappointed'' by the lack of ``concrete results'' in the U.S.-
Vietnam bilateral human rights dialogue. They cited failure of the 
Vietnamese Government to respond to U.S. concerns in several key areas, 
including religious freedom as reason why they canceled the Fall, 2003 
dialogue.
    Increased trade has not led to progress in the area of protecting 
human rights and basic liberties. More dollars have not lead to 
democratization. And quiet diplomacy alone has not produced tangible 
results.
    Since the passage of the BTA, there is incontrovertible evidence 
that the Vietnamese Government has initiated crackdowns on religious 
leaders, free speech advocates, political reformers, and those 
peacefully championing the rights of ethnic minorities. Let me briefly 
give you some very recent examples that fit into the larger pattern of 
human rights abuses since the passage of the BTA in 2001:

  <bullet> In the last month, the government in Hanoi has pursued a 
        severe crackdown on the Unified Buddhist Church of Vietnam 
        (UBCV). Currently, 26 of its newly elected leaders are under 
        arrest, and founders Thich Huyen Quang and Thich Quang Do, both 
        Nobel Peace Prize nominees, face trumped up charges of 
        espionage. The arrests came despite Vietnamese Prime Minister 
        Pham Van Khai's admission that past crackdowns on the UBCV were 
        ``mistakes.''

  <bullet> Trying to investigate the current situation, Commission 
        staff had meetings with UBCV monks disrupted by security 
        forces, phone conversations cut-off, and was physically barred 
        from visiting UBCV leader Thich Quang Do and Thich Tu Sy.

  <bullet> Fr. Thadeus Ngyuen Van Ly, a leading religious freedom and 
        democracy advocate, was sentenced to 15 years in prison and 5 
        years house arrest for submitting testimony to the U.S. 
        Commission on International Religious Freedom. Though Fr. Ly's 
        sentence was recently reduced by five years, his nephews remain 
        in prison for alerting human rights groups to their uncle's 
        arrest.

  <bullet> The Venerable Thich Tri Luc of the UBCV is facing charges of 
        ``immigration with intent to oppose the regime'' which carries 
        with it a sentence of between 3 years and life imprisonment. 
        The Venerable ``disappeared'' from a UNHCR transit house in 
        Phenom Penh in June of 2002. He was forcibly repatriated to 
        Vietnam, and his whereabouts were unknown until July of 2003. 
        He is in prison. His trial is pending.

  <bullet> According to smuggled documents recently obtained by Freedom 
        House in June and December of 2003, government officials with 
        the Ministry of Public Security have entered places of worship, 
        denounced believers, and forced them to sign ``confessions'' 
        where they renounced their faith and promised to return to 
        traditional animist rituals. We know that at least two 
        religious leaders have died in the past two years because of 
        beatings they received for refusing to renounce their faith.

    These are only a sample. Given Vietnamese actions over the past 
year, the Commission believes the U.S. Government must use its leverage 
with the Government of Vietnam to produce real and meaningful 
improvements in human rights and religious freedom.

CPC As Flexible Diplomatic Tool
    Mr. Chairman, the Commission has recommended to the Secretary of 
State that Vietnam be designated as a ``country of particular concern'' 
(CPC) for the past two years. We believe that Vietnam's abuses of 
religious freedom meet the criteria set down in the International 
Religious Freedom Act of 1998.
    The CPC designation is a flexible diplomatic tool. It provides the 
President with a range of specific options to take to address serious 
abuses of religious freedom. It does not automatically entail 
sanctions, but requires that the Secretary of State enter direct 
consultations with a country to find ways to improve the religious 
freedom situation. To avoid economic sanctions, countries can enter 
into a binding agreement with the U.S. that spells out specific actions 
they will take in the future.
    Mr. Chairman, the CPC designation has to be used in order for it to 
be more than a toothless gesture of moralpolitique. Despite Commission 
recommendations, the State Department has not yet designated Vietnam as 
a CPC.
    When used properly the CPC designation:

  <bullet> Sends the clear signal that U.S. interests include concern 
        for human rights.

  <bullet> Starts a dialogue where specific benchmarks on progress are 
        agreed upon in order to avoid economic sanctions.

  <bullet> Allows the President, or the Secretary of State, to employ 
        or use the threat of multiple and ongoing sanctions to address 
        egregious abuses of religious freedom.

  <bullet> Allows the President to waive any specific actions if 
        progress is being made toward addressing serious religious 
        freedom abuses.

    In the last year, international scrutiny has forced the Government 
of Vietnam to try to staunch growing criticisms of its human rights 
record. The Vietnamese Government released several prominent religious 
dissidents, reduced the sentences of others, and in a dramatic gesture, 
allowed you, Chairman Brownback, to meet with long-time democracy and 
religious freedom advocate Fr. Nguyen Van Ly.
    Mr. Chairman, these actions should be seen for what they are, 
goodwill gestures that do not promise any substantive or systematic 
improvement. In fact, the religious dissidents released earlier this 
year were recently re-arrested (Thich Quang Do and Thich Huyen Quang).
    The Vietnamese Government has badly underestimated the depth of 
disappointment that exists in the Congress and U.S. Government 
concerning its human rights record. The blatant disregard of the most 
basic human rights, and the recent and ongoing crackdowns on religious 
adherents, makes clear why Vietnam should be immediately designated a 
``country of particular concern'' (CPC).

Other Policy Recommendations
    In our current report the Commission included several policy 
recommendations for the Congress's consideration:

  1. Passage of Vietnam Human Rights Act: The Commission has supported 
        the Vietnam Human Rights Act, many of the Commission's past 
        recommendations have been incorporated into that Act. The act 
        would cap non-humanitarian aid at 2003 levels (not cut it off 
        as some critics contend) and provide increased funding for 
        public diplomacy and immigration programs. We believe that a 
        cap of non-humanitarian aid will send the signal that the U.S-
        Vietnamese relationship cannot expand unless meaningful and 
        systematic changes occur. The language of the Vietnam Human 
        Rights Act was placed in the Foreign Relations Authorization 
        Act (HR 1950). The Commission hopes that the original language 
        will stay intact when the bill emerges from conference.

  2. Overcome Jamming of Radio Free Asia (RFA): The Commission 
        recommends that steps be taken to overcome jamming of Radio 
        Free Asia broadcasts, ensure that RFA Internet site is 
        accessible and free, and allow RFA personnel into Vietnam. 
        While RFA broadcasts face active interference, Vietnam state 
        television and radio programs are transmitted unhindered to the 
        United States via Cuba and Canada. The same broadcast courtesy 
        should be given to RFA broadcasts.

  3. Target Exchange Programs to Advance Human Rights: The Commission 
        also recommends that foreign assistance and exchange programs 
        go to support individuals in Vietnam who advocate human rights, 
        the rule of law, and legal reform. We should, for example, 
        target cultural and education opportunities for the Montagnard 
        and Hmong peoples of Vietnam. We should also seek to hold 
        regular dialogues and exchanges (both in Hanoi and in 
        Washington) between international experts on religion and law 
        and appropriate representatives of Vietnam's Government, 
        academia, and clergy. This is particularly critical at this 
        time because the Vietnamese National Assembly is planning a new 
        ``Law on Religion'' in the near future.

  4. Re-evaluate the Eligibility Criteria for Millennium Challenge 
        Account (MCA): The Millennium Challenge Account (MCA) is an 
        ambitious and farsighted program that has the potential to 
        revolutionize the way the United States promotes democracy and 
        development abroad. But there is something wrong with the 
        eligibility criteria when Vietnam can receive funds in the very 
        first year. We hope the Congress will weigh in to make sure 
        that money does not go to Vietnam without significant progress 
        being made in the areas of human rights and religious freedom. 
        Or, that changes can be made to the eligibility criteria so 
        that abuses and restrictions of human rights, including 
        religious freedom, are weighed more heavily when determining 
        eligibility.

    Mr. Chairman, these important policy steps support both U.S. 
interests and values. They are also steps that will demonstrate our 
government's seriousness about the protection and promotion of 
international human rights standards.

Conclusion
    History has entwined our two countries in sometimes-tragic ways. 
But we only compound that tragedy if we focus narrowly on economic or 
security relations at the expense of human rights. As we learned with 
the Helsinki Process during the Cold War, the three must move forward 
together for effective change to occur.
    Advancing free speech, free press, and freedom of religion 
represents not only core American values but also international 
standards of human rights-standards that the Vietnamese have already 
acceded to in various international treaties and covenants. Working to 
protect and promote these basic freedoms furthers the interests of both 
the United States and the people of Vietnam.
    Mr. Chairman, the Commission believes that by taking the steps 
outlined above, U.S.-Vietnam relations will improve for the long term 
and become the basis for a strong and healthy relationship built on 
mutual interests and the rule of law.
    Thank you Mr. Chairman, and I welcome your questions.\1\
---------------------------------------------------------------------------
    \1\ A related report, Report on Vietnam, May 2003, is available on 
the U.S. Commission on International Religious Freedom web site: 
www.uscirf.gov

    Senator Brownback. Thank you very much, Commissioner. Why--
why is this happening now? Why would they take this step 
backward at this point in time when things were moving forward, 
the economic engagement was moving forward, the military 
engagements in a positive potential fashion. Why--why step 
backwards at this point in time? Have you been able to derive 
any ideas or thoughts why that's occurring?
    Mr. Young. Mr. Chairman, that's a very good question, and I 
am not sure, but there's an old social science adage that 
things that get measured change. And I would--I wonder whether 
at least in some degree the extent to which we have paid 
attention to the other issues have expanded the integration and 
perhaps send a signal to the Vietnamese that some of these 
issues are more important to America than the human rights 
issues. I think nothing could be further from the truth, but I 
wonder whether they have that signal. It's not entirely clear 
that all the actions of our government would not have led them 
to have that perception.
    Senator Brownback. Is it that we passed--is there another 
possibility that we passed the bilateral trade agreement, the 
pressure was on prior to that time period to open up human 
rights issues, religious freedom concerns, and then after that 
passed, well, we've got you now, and so we don't need to be 
particularly interested or focused or we can even be tougher in 
these issues?
    Mr. Young. Well, Mr. Chairman, for one, you're very 
cynical, but it's entirely possible that that's what happened, 
but I think whether that's what happened or not, what is clear 
is that the bilateral trade agreement, to the extent it has 
occasioned this expansion of trade and integration on the 
economic front as well as the expansion on the security front, 
we should now, whatever happened in the past, view it as an 
opportunity to give us some additional levers to work with the 
Vietnamese Government to persuade them that the expression of 
interest in human rights that was evident before the passage of 
that act is just as important and just as evident now.
    And indeed, if in fact the Vietnamese Government had 
engaged in that very cynical calculation that they don't need 
to pay attention to it because the act has been passed, it 
makes it more the more important that at the highest levels 
that agenda gets equal place with the economic agenda.
    Senator Brownback. Do we need to pass any additional laws 
or rules here from the Senate or the House to express this to 
the Vietnamese Government or to the U.S. administration?
    Mr. Young. Well, we have expressed support of the Vietnam 
Human Rights Act. It contains many of the recommendations that 
I just articulated and that we have--suggestions that we have 
made in the past, policy recommendations that we have passed on 
to the State Department, the National Security Council, and the 
President.
    I think that legislation sends a very useful signal both to 
the administration as well as the Government of Vietnam that 
the concern about freedom of religion that was expressed prior 
to the passage of the bilateral trade agreement has not abated, 
and that if indeed that's the signal that has been lost somehow 
in transmission, that act would go some ways to suggesting that 
this issue is still of central importance to Americans.
    Senator Brownback. Good. Thank you, Commissioner. Anything 
further you'd like to add?
    Mr. Young. No, just thank you again for your time and 
appreciate your engagement in this issue. Thank you.
    Senator Brownback. Well, I appreciate yours, because you're 
representing millions, billions of people around the world just 
yearning to think freely. Thank you very much. Best to you, and 
best to your work.
    Mr. Young. Thank you.
    Senator Brownback. Now to the third panel of individuals 
from a broad range of areas: Honorable Bob Seiple, chairman of 
the board of Institute for Global Engagement; Mr. Rhamy Eban, 
Montagnard refugee; Ms. Virginia Foote, president of the U.S. 
Vietnam Trade Council; Mr. Viet D. Dinh, professor of law, 
deputy director of the Asian law and policy studies at 
Georgetown University Law Center; and Dr. Nguyen Dinh Thang, 
executive director of the Boat People SOS, based out of 
Virginia.
    I want to thank this panel for joining us today as well. 
Dr. Thang, why don't you go ahead and start, and then we'll 
just move down the row. Your prepared statements will be placed 
in the record, so if you'd like to summarize, that would be 
wonderful, but the full written testimony of all the witnesses 
will be placed in the record.

STATEMENT OF NGUYEN DINH THANG, EXECUTIVE DIRECTOR, BOAT PEOPLE 
                              SOS

    Mr. Thang. First of all, I would like to point out that 
right now U.S. programs in Vietnam are the only escape routes 
for most victims of persecution for religious reasons in 
Vietnam because after 1986 when the comprehensive benefit 
action ended; there's no way for boat people to leave Vietnam 
or for Vietnamese to escape by land to come to Thailand. There 
have been many instances, hundreds of instances of Montagnard 
who escaped to Cambodia but got reported to Vietnam to serve 
prison sentence or to face persecution in Vietnam.
    There was also a Buddhist monk who escaped Cambodia and 
then deported, got actually abducted and sent back to Vietnam. 
He is in prison right now.
    Corruption, arbitrary detention, and denial of travel 
documents have blocked access to most U.S. refugee programs for 
tens of thousands of religious persecution at the current time 
in Vietnam. I will give you one example, actually two examples. 
The first example, I personally know of a case of two 
survivors. They both apply same time to the same local 
authorities. One paid the authorities, and he's now here in the 
U.S. The other one couldn't pay, and he is still in Vietnam.
    The other case is even more outrageous. He is a living 
Buddhist. He returned to Vietnam from a refugee camp in 1996. 
He got listed to be interviewed by the U.S. refugee program in 
1998, but he couldn't pay the 30,000 U.S. dollars demanded by 
corrupt officials. He's now still in Vietnam trying to get out. 
All his papers, personal papers have been confiscated by the 
authorities.
    By statutory definition, free and open immigration means 
not only the issuance of exit permits, but also that no citizen 
should be made to be paid more than a nominal fee on 
immigration or on the visa or other documents required for 
immigration. This is the language of the amendment. Clearly, 
immigration in Vietnam is neither free nor open by that 
standard.
    Is that exerting pressure on Vietnam to comply with the 
amendment? Our Department of State regrettably has chosen to 
ignore the victims in many instance. This attitude is evident 
in the Priority One Program. That's a special program for 
victims of ongoing or recent persecution. Considering the 
testimony of Ambassador Hanford, for instance, that there has 
been an increasing crackdown on independent churches in 
Vietnam, the detention of the entire leadership of these 
churches in the south, the mounting persecution against the 
Montagnard in the central highlands, the oppression of monks 
and other ethnic minorities who have protested in the north, 
and the imprisonment of numerous dissidents in recent years, it 
is troubling to learn that only one Priority One case has been 
processed by our government for the past 7 years.
    We have so far referred 10 Priority One cases to the 
Department of State, including the case of the three relatives 
of Father Ly. Many of these cases, the Department of State 
claims, cannot be processed because they are either in prison 
or in detention. This accommodating attitude will only 
encourage the Vietnamese Government to conveniently place more 
people in detention.
    The message from our government is wrong, but very clear. 
Using detention to block immigration does not violate the 
Jackson-Vanik amendment. As part of its annual review of the 
waiver, it's necessary for the U.S. Congress to come up with 
meaningful benchmarks to assess how free and open immigration 
in today's Vietnam is.
    I recommend the following benchmark. Vietnam should fully 
cooperate with the U.S. decision to reopen the restitution debt 
line for the HO, which is the Humanitarian Operations Program 
for survivors, and U.N. program for former U.S. Government 
employees.
    In 2001, the State Department made an official decision to 
reopen that line for registration. So far, 3 years later, 
Vietnam has not cooperated. Vietnam should allow repatriated 
boat people to sign up for the Rowboat Program. I suspect that 
thousands of them have been denied the opportunity to sign up 
for the program.
    Vietnam should allow the U.S. Government full access to all 
persons eligible for U.S. refugee interviews, including those 
in prison or detention. I do believe that the U.S. Government, 
on the other hand, should double its effort to protect against 
persecution in Vietnam.
    I'd like to make a final recommendation. Immediately 
process all Priority One cases already referred to the 
Department of State Bureau of Population, Refugees, and 
Migration. Conduct interviews in prisons or places of detention 
if necessary. Send U.S. officers to the central highlands and 
other remote areas to interview the Montagnard and other 
victims of persecution who have been denied travel documents to 
go down south to Saigon for an interview. To arriving refugees' 
document, the corrupt practices of Vietnamese officials can 
affect the U.S. refugee program. And finally, I agree with you, 
Mr. Chairman, expeditiously process the 2,000 Vietnamese former 
boat people in the Phillippines. They are remnants of the 
comprehensive benefit action that ended in 1996 and who, for 
good reasons, chose not to trust the Vietnamese Government's 
promise of free and open immigration.
    Thank you, Mr. Chairman.
    Senator Brownback. Mr. Thang, thank you very much, and 
thank you for the very specific recommendations. I think those 
are excellent. Again, as I noted, we have a refugee limit 
that's much higher than what we've been fulfilling the last 
couple of years, and we really should be processing a number 
more people coming in from Vietnam who have experienced a great 
deal of persecution. I'm sad to hear that only one Priority One 
case has been processed in the United States.
    It's unfortunate we're in the situation we are today, that 
there's still this taking place inside Vietnam, but there are 
things that we can do unilaterally, steps we can take here, and 
I appreciate very much your testimony.
    Ambassador Seiple, thank you. Welcome back to the 
committee. We're going to run this clock at about 6 minutes to 
give you a time frame, so if we can try to keep it within that 
set would be nice. Welcome.

STATEMENT OF HON. BOB SEIPLE, CHAIRMAN OF THE BOARD, INSTITUTE 
                     FOR GLOBAL ENGAGEMENT

    Mr. Seiple. Mr. Chairman, it's nice to be seated across 
from you after a few years hiatus. I've been traveling back to 
Vietnam on a yearly basis since 1988. It's a country I've grown 
to love. I have deep respect for the ingenuity of the people. 
But I have been deeply concerned with what appears to be a 
deteriorating approach to human rights by the Vietnamese 
Government.
    I'll limit my comments to the harassment of Christians, but 
the various expressions of Buddhism have also come under 
government oppression. The northwest provinces and the central 
highlands have produced the worst offenses, beatings, 
imprisonments, disappearances, and murders have all been 
recorded in great detail. Pastors are not allowed to obtain 
passports, they're unable to travel freely, in every way 
imaginable they are treated as second-class citizens. Local 
people harass worshipers on Sundays, the church is unable to 
print and circulate literature on its activities. The training 
of pastors and specifically the number of pastors who will be 
training in any one year is carefully regulated by the 
government. Both Catholics and Protestants have been detained, 
beaten, and imprisoned.
    In short, the record of the Vietnamese Government is 
terrible in terms of religious freedom, and this record has 
been carefully documented with a great deal of clarity. The 
actions or the inactions of this government violate every 
international covenant since the Universal Declaration of Human 
Rights. The government unfortunately seems to be in total 
denial. A strict discipline within that government assures that 
all of the talking points on this issue are repeated verbatim.
    What to do? I think there are really only two options. The 
first option is that the United States Government could 
designate Vietnam as a country of particular concern. The 
testimony this day will, I'm sure, provide ample evidence of 
violations of religious freedom in Vietnam that can be 
described fairly as egregious, one of the key thresholds for 
sanctions designation under the International Religious Freedom 
Act of 1998.
    Such a designation with whatever sanctions to follow, 
together with the inclusion on the list of the worst offenders 
in global history, would certainly show resolve on our part. We 
would feel better knowing that we had done our duty, regardless 
of any potential blowback on those who in the difficult places 
of the world we are called to serve. We could justify any 
sanctions given the words and the intent of IRFA. In short, we 
could raise the specter of punishment in the hopes that this 
would change bad behavior. That would indeed make us feel 
better, but it could have a disastrous effect on our long-term 
hopes for the people of Vietnam.
    Like most countries that have lived through a period of 
colonization, the Vietnamese know how to resist. History is 
very clear on this, especially to those of us who fought in the 
Vietnam War. That war was frustrating, and over these last 15 
years I've had occasion to negotiate specific issues that I 
felt were clearly in the interest of the Vietnamese, and at 
times these negotiations have been equally frustrating.
    The Vietnamese have a long-term view of history, an 
exceptionally strong corporate will, and a unique national 
identity. We can certainly apply the pressure available under 
IRFA, but Vietnam will most certainly dig in its heels. 
Additionally, we could play straight into the hands of the 
hardliners and the Vietnamese Government. In short, pressure 
and power will not advance our overall foreign policy goals, 
and I'm including our human rights in those goals, with the 
Vietnamese Government. We too need to take a longer view.
    I would recommend the following. I think we need a road map 
in Vietnam for human rights in general, and more specifically, 
religious freedom. A space has to be created for this issue to 
be discussed, a space that does not have the sword of sanctions 
hanging overhead. A third party should be enlisted to 
facilitate these discussions. Moderate voices need to be 
identified within the Vietnamese Government, as well as the 
religious communities, individuals that have the trust of their 
constituencies, individuals who can speak credibly for those 
constituencies.
    A common win-win point of vested self-interest needs to be 
discovered, against which the issue of religious freedom can be 
evaluated and our entire bilateral relationship can be judged. 
The pragmatics of this issue need to be mutually discovered and 
applied, especially the positive role that religious freedom 
plays with national security.
    Finally, religious freedom advocates and the business 
community cannot be working at cross purposes. If Vietnam is to 
be a sound business investment, the best of human rights, 
including predictable rule of law, internal security, 
international perceptions, and a universal sense of human 
dignity all need to be articulated concepts and practical 
realities for business leaders and human rights activists 
alike.
    Much has taken place over the last 30 years to bring 
closure to a difficult historic event. It wasn't easy, and it 
wasn't fast. Let's not give back any ground. No one is saying 
that the future is going to be easy. The hard work ahead of us, 
however, has to be done together. We all should be looking for 
a sustainable solution, and that will never happen if we 
attempt to impose one alone from the outside. Thank you.

    [The prepared statement of Mr. Seiple follows:]

  Prepared Statement of Robert A. Seiple, Founder and Chairman of the 
                 Board, Institute for Global Engagement

    I have been traveling back to Vietnam on a yearly basis since 1988. 
It is a country that I have grown to love. I have deep respect for the 
ingenuity of its people but I have been deeply concerned with what 
appears to be a deteriorating approach to human rights by the 
Vietnamese Government.
    I will limit my comments to the harassment of Christians, but the 
various expressions of Buddhism have also come under government 
oppression. The northwest provinces and the central highlands have 
produced the worst offenses. Beatings, imprisonments, disappearances, 
and murders have all been recorded in great detail. Pastors are not 
allowed to obtain passports. They are unable to travel freely. In every 
way imaginable, they are treated as second-class citizens.
    Local police harass worshipers on Sundays. The church is unable to 
print and then circulate literature on its activities. The training of 
pastors, and specifically the number of pastors who will be trained in 
any one year, is carefully regulated by the government. Both Catholics 
and Protestants have been detained, beaten, and imprisoned.
    In short, the record of the Vietnamese Government is terrible in 
terms of religious freedom, and this record has been carefully 
documented, with a great deal of clarity. The actions (or the 
inactions) of this government violate every international covenant 
since the Universal Declaration of Human Rights. The government, 
unfortunately, seems to be in total denial. A strict discipline within 
that government assures that all of the ``talking points'' on this 
issue are repeated verbatim.
    What to do? There are really only two options. The first option is 
that the United States Government could designate Vietnam as a country 
of particular concern. The testimony this day will, I am sure, provide 
ample evidence of violations of religious freedom in Vietnam that can 
fairly be described as ``egregious,'' one of the key thresholds for 
sanctions designation under the International Religious Freedom Act 
(IRFA) of 1998. Such a designation, with whatever sanctions to follow, 
together with the inclusion on the ``list'' of the worst offenders in 
global history, would certainly show resolve on our part. We would feel 
better, knowing that we had done our duty, regardless of any potential 
blowback on those who, in the difficult places of our world, we are 
called to serve. We could justify any sanctions, given the words and 
the intent of IRFA. In short, we could raise the specter of punishment 
in the hopes that this would change bad behavior. That would make us 
feel better but it could have a disastrous effect on our long-term 
hopes for the people of Vietnam.
    Like most countries that have lived through a period of 
colonization, the Vietnamese know how to resist. History is very clear 
on this, especially to those of us who fought in the Vietnam War. That 
war was frustrating. Over these last 15 years I have had occasion to 
negotiate specific issues that I felt were clearly in the interest of 
the Vietnamese and, at times, those negotiations have been equally 
frustrating. The Vietnamese have a long-term view of history, an 
exceptionally strong corporate will, and a unique national identity. We 
can certainly apply the pressure available under the IRFA, but Vietnam 
will most certainly dig in its heels. Additionally, we will play 
straight into the hands of the hardliners in the Vietnamese Government. 
In short, pressure and power will not advance our overall foreign 
policy goals (and I am including human rights in those goals) with the 
Vietnamese Government. We, too, need to take a longer view.
    I recommend the following: We need a road map in Vietnam for human 
rights in general and, more specifically, religious freedom. A space 
has to be created for this issue to be discussed, a space that does not 
have the sword of sanctions hanging overhead. A third party should be 
enlisted to facilitate these discussions. Moderate voices need to be 
identified within the Vietnamese Government as well as the religious 
communities, individuals that have the trust of their constituencies, 
individuals who can speak credibly for those constituencies.
    A common ``win-win'' point of vested self-interest needs to be 
discovered against which the issue of religious freedom can be 
evaluated and our entire bilateral relationship can be judged. The 
pragmatics of this issue need to be mutually discovered and applied, 
especially the positive role that religious freedom plays with national 
security.
    Finally, religious freedom advocates and the business community 
cannot be working at cross-purposes. If Vietnam is to be a sound 
business investment, the best of human rights-including predictable 
rule of law, internal security, international perceptions and a 
universal sense of human dignity-all need to be articulated concepts 
and practical realities for business leaders and human rights activist 
alike.
    Much has taken place over the last 30 years to bring closure to a 
difficult historic event. It wasn't easy, and it wasn't fast. Let's not 
give back any ground. No one is saying that the future is going to be 
easy. The hard work ahead of us, however, has to be done together. We 
all should be looking for a sustainable solution, and that will never 
happen if we attempt to impose one, alone, from the outside.

    Senator Brownback. Thank you, Ambassador. We have a vote on 
now, as I have seen. Is that correct? So if we could, we'll 
hold in recess. I hope I can get over and back in probably 
about 15 minutes, and then we'll proceed with the rest of the 
panel. I'm sorry to do this to you but the bell calls, so I 
will be back shortly, and we should try to reconvene in about 
15 minutes. Thank you.

    (Recess.)

    Senator Brownback. I'll call the hearing back to order. 
Sorry for the lengthy delay. We were just proceeding to Ms. 
Foote, I believe. Ms. Foote represents--she's president of the 
U.S. Vietnam Trade Council. I very much appreciate you being 
here.

  STATEMENT OF VIRGINIA FOOTE, PRESIDENT, U.S.-VIETNAM TRADE 
                            COUNCIL

    Ms. Foote. Senator, thank you very much for having me 
today. I, as you say, I am president of the U.S.-Vietnam Trade 
Council. We're a trade association that has been working on 
U.S. relations with Vietnam for 15 years and have offices here 
and in Vietnam.
    I'd like to discuss the importance of what I think is the 
role of the United States in continuing to engage Vietnam on 
all issues that face our broadening and deepening bilateral 
relationship. With the war further and further behind us, we 
now have a new and successful beginning for our two nations.
    The U.S.-Vietnam bilateral trade agreement, NTR status that 
happened in December '01, and we continue to work on accession 
to the WTO. Trade has nearly tripled since the BTA came into 
force, and the U.S. is now Vietnam's largest trading partner.
    As was mentioned earlier, we've signed an aviation 
agreement, a textile agreement, a counter-narcotics agreement. 
There were many high-level visits last year, and the military 
to military relationship is now moving forward with good speed. 
Remarkably, every year in normalization we have seen economic, 
political, and diplomatic progress.
    The structure of Vietnam's economy as a whole is rapidly 
changing also. Latest figures show that the foreign invested 
sector and the private sector now represent 60 percent of the 
Vietnamese economy. The World Bank reports that the poverty 
rate has fallen by half in the past 10 years. It's one of the 
sharpest declines of any country. The economy continues to grow 
at an impressive rate year after year. Last year's 
accomplishment of 7 percent growth is expected to be repeated 
in 2004.
    And to assist with the implementation of this very 
important bilateral trade agreement, U.S. Government programs 
provide tremendously effective technical assistance. The United 
States should remain involved in this process.
    I would also argue that the relationship between the U.S. 
and Vietnam has led to very positive developments on political 
issues, issues of concern to the U.S., but I would also argue 
that the human rights situation in Vietnam has improved 
dramatically since the years I've been going back and forth to 
Vietnam, but I think progress can be measured annually and not 
just in a 15-year period.
    The Jackson-Vanik waiver has been issued every year and has 
enjoyed bipartisan support in Congress. The ROVR cases, the 
Orderly Departure Programs have run smoothly and successful--
successfully--many of them with very troubled beginnings. The 
MI work--the MIA work is among the best in the world as is an 
example of the benefits of engagement.
    If you then look at some other issues, on labor, the U.S. 
and Vietnam have signed a memorandum of understanding in 
November of 2000. The MOU has resulted in an annual dialogue on 
labor rights and technical assistance working with the ILO in 
Vietnam to strengthen labor protection, skills training, 
employment services, social insurance, safety net, employment 
of the disabled, and child labor.
    Vietnam has ratified 15 ILO conventions and is reviewing 
several more to pass. Their labor core--their labor law is up 
to international standards with new amendments passed just last 
year.
    Another important area is the right of women in Vietnam. 
Women share an equal status to men under the law and continue 
to gain strides in equality and practice. They are free to 
practice and participate in any religion, work any job, attend 
schools at all levels, drive, vote, participate in government, 
and hold top leadership positions in universities, businesses, 
national, and provincial government. In the national assembly, 
for example, women hold 27 percent of the total seats and rank 
second in the Asia Pacific region and ninth worldwide for women 
in the national assembly.
    Our relationship is strengthened in other areas as well. 
Americans are traveling to Vietnam in tremendous numbers. In 
2003, over 30,000 Americans went to Vietnam. Two-thirds of that 
number were Vietnamese-American. This year over Tet 100,000 
visas were issued, mostly for Vietnamese-Americans, and a 
historic visit was made by a former President, Nguyen Cao Ky, 
which was covered widely in the U.S. and Vietnamese press.
    Since our countries set on the path to normalization, the 
U.S. and Vietnam have enjoyed successes but also setbacks. Both 
sides have a list of complaints on the trade issue. It's a not 
so unusual trade relationship. And as Vietnam entered the 
coffee export market in the 1990s, almost overnight it became 
the second largest coffee exporter after Brazil, and coffee 
prices plummeted. Serious land right and worker dislocation 
emerged in the highland, where ethnic, religious, and political 
differences are long outstanding issues. Very serious 
disturbances happened in 2001.
    I think there's no question that 2001 was a low point in 
the relationship, and religious freedom, property rights, and 
freedom in the highlands. But since then there has been 
progress. The disturbances, fairly or unfairly, have been 
accused of being aided by, funded by, or instigated by 
movements from outside, and yet progress has been made recently 
for evangelical worship in the highlands. It's slow progress, 
but it's progress.
    Catholics make up slightly over 8 percent of the 
population, making Vietnam the second largest Catholic 
population in Asia. Relations with the Vatican are established, 
discussions are ongoing for a papal visit, and a second 
Vietnamese cardinal was ordained in October 2003. More priests 
were ordained last year than the year before. We had a meeting 
with the cardinal on my last trip to Vietnam. His strong desire 
is that the Vietnamese Government allow the Catholic Church to 
be more involved in educational programs, run schools, and 
establish charities to work on the social evils, as he said, on 
drug addicts, homeless, and sex workers.
    I assume my whole testimony will be submitted into the 
record, but I just want to close by saying that I think it's 
absolutely the case that not everyone in the U.S. and not 
everyone in Vietnam supports normalization. I think given our 
history that's understandable, and given our history it's all 
the more remarkable that veterans and Vietnamese-Americans have 
led the way for normalization.
    On behalf of our members, we urge a continuing engagement 
with Vietnam for the benefit of citizens of both countries and 
as an amazing example to the rest of the world. Thank you, 
Senator.

    [The prepared testimony of Ms. Foote follows:]

          Prepared Statement of Virginia B. Foote, President,
                       U.S.-Vietnam Trade Council

    Senator Brownback and Committee Members, I am pleased to be here 
today representing the U.S.-Vietnam Trade Council to testify before 
your Committee to review ``Trade and Human Rights: The Future of U.S.-
Vietnamese Relations.''
    The U.S.-Vietnam Trade Council, founded in 1989, is a trade 
association with strong membership from the American business community 
and offices in Washington D.C., and Vietnam. We have worked through the 
Council and our Education Forum, to help improve relations between the 
United States and Vietnam with educational exchange programs, annual 
conferences, Congressional delegations, and programs designed to 
provide technical assistance on international trade norms and 
standards. We are working to help develop a new trade law curriculum 
for the law schools in Vietnam. During the NTR process, we chaired a 
coalition of over 270 associations and companies who support trade 
relations with Vietnam, and we now play a key role in assisting WTO 
accession. I hope my full testimony can be submitted for the hearing 
record.
    Today, I would like to discuss the importance of continuing to 
engage Vietnam on all issues that face our broadening and deepening 
bilateral relationship. With the war further and further behind us, we 
now have a new and successful beginning for our two nations.
    The U.S. and Vietnam are engaged on a whole range of issues new to 
the post-war relationship, economic relations being among the most 
important. The U.S. and Vietnam have mostly normalized trade relations 
with a comprehensive Bilateral Trade Agreement (BTA) and NTR status 
that began in December 2001 and continued work on Vietnam's accession 
to the WTO.
    Ten years after the lifting of the post-war embargo by the U.S., 
and with the BTA just having had its second anniversary, U.S. 
participation in Vietnam's economy is of growing significance. As of 
September 2003, total year-to-date bilateral trade stood at nearly $5 
billion. Comparisons made on pre-BTA statistics (Year 2001 and YTD 
2003) indicate that U.S. exports to Vietnam and Vietnamese exports to 
the U.S. for 2003 will have close to tripled.\1\ U.S. investment in the 
Vietnamese economy stands at approximately $1.44 billion in committed 
capital and is growing.
---------------------------------------------------------------------------
    \1\ 2001: U.S. Exports to Vietnam = USD$460,892,072; Vietnam 
Exports to U.S. = USD$1,052,626,287. 2002: U.S. Exports to Vietnam = 
USD$580,154,302; Vietnam Exports to U.S. = USD$2,394,745,628. 2003 YTD: 
U.S. Exports to Vietnam = USD$1,162,584,666; Vietnam total exports to 
U.S. = USD$3,621,737,436.
---------------------------------------------------------------------------
    The Reagan, Bush, Clinton and Bush administrations have all 
followed a policy of both economic and political normalization with 
Vietnam through a step-by-step process. As our timeline shows, this 
process has proceeded successfully, albeit slowly, through four 
administrations. Overall it has led to the lifting of the trade embargo 
in 1994, the establishment of diplomatic relations in 1995, and the 
exchange of ambassadors in 1997. Economic normalization includes the 
initial waiver of the Jackson-Vanik amendment in 1998, and granting NTR 
status in 2001. An aviation agreement, a textile agreement, a counter-
narcotics agreement, and many high level visits, were some of the steps 
forward taken in 2003. Our military to military relations made history 
last year with the visit of the Vietnamese Minister of Defense to the 
Pentagon, a U.S. naval ship visit to Vietnam, Vietnam pledged both cash 
and in kind donations to our post-war efforts in Iraq, and our CINCPAC 
Commander Admiral Thomas Fargo is in Vietnam now. On the economic side, 
WTO accession and PNTR lie ahead.
    Throughout the process of normalization, Vietnam has greatly 
enhanced its efforts on issues of high priority to the U.S. including 
MIA efforts, emigration goals, and economic integration. Vietnam and 
the U.S. have also developed important bilateral dialogue on regional 
issues, human rights, and labor standards.
    Remarkably, every year we have seen economic, political, and 
diplomatic progress.
    The entry into force of the BTA was a key step to further progress 
in normalizing relations as it is the most comprehensive trade 
agreement Vietnam has ever signed, and the most comprehensive NTR trade 
agreement the U.S. has ever negotiated. In exchange for sweeping 
commitments from Vietnam including providing greater market access for 
trade in goods and services, protecting intellectual property rights, 
improvements in the investment regime, and far greater transparency, 
the U.S. granted Vietnam normal trade tariffs--moving Vietnam from 
column two to column one in the U.S. tariff code. Equally important, 
the Vietnamese Government has committed to important reforms in the 
areas of trading rights, transparency, customs, investment, services, 
and intellectual property rights. Approval of the trade agreement 
ensured that exports from U.S. companies receive treatment in Vietnam 
no less favorable than products of foreign competitors. While the 
negotiations between the U.S. and Vietnam were long and difficult, it 
was the discussions between and among the Vietnamese that were probably 
the most important. The result is that the BTA is an important 
blueprint or roadmap for Vietnam to follow while tackling some of the 
more difficult issues of economic reform which lie ahead. It is a 
roadmap of economic reform commitments that will help guide them into 
WTO.
    Last week, the Trade Council released a 70 plus page two-year 
progress report on the BTA and issues faced by U.S. companies in 
Vietnam. You can see from this report, The U.S.-Vietnam Bilateral Trade 
Agreement: A Survey of U.S. Companies on Implementation Issues, that 
while challenges remain in implementation, Vietnam has undertaken 
serious efforts to meet their commitments and has met with tremendous 
success. Vietnam has issued an impressive amount of new legislation, 
and much effort has been made to ensure that these are BTA and WTO 
compliant. To help track these efforts, the Trade Council's Education 
Forum has been publishing a monthly Catalog of Legal Updates, which 
compiles summaries of new laws, decrees, and regulation that address 
commercial law reform and with possible impact on BTA implementation. 
As of the end of 2003, Vietnam has established a new customs valuation 
regime based on transaction pricing, issued legislation for border 
enforcement of intellectual property rights, expanded the scope of 
foreign legal practice in Vietnam, and instituted new mechanisms to 
introduce more transparency into its system. Efforts are currently 
being undertaken to strengthen the capacity and authority of its 
judicial system in order to further encourage the rule of law. Overall, 
U.S. companies remain optimistic about Vietnam's future and potential, 
and look forward to continuing their business relationships--the 
tripling of trade and the growth in investment in such a short period 
of time bodes well.
    The structure of Vietnam's economy as a whole is also undergoing 
rapid change. The Enterprise Law, which came into effect in January 
2000, marked a turning point in Vietnam's efforts to revitalize the 
domestic private sector. Ho Chi Minh City alone has 37,000 private 
small and medium sized enterprises (SMEs) registered under the new 
Enterprise Law, and 45,000 enterprises have been registered country 
wide. The number of enterprises founded in the six months after the law 
went into effect equaled the total number of enterprises founded in the 
previous nine years.
    Foreign Direct Investment continues to grow as well. New reforms in 
licensing procedures were partially responsible for an upsurge in 
foreign investment last year. Latest figures show that the foreign 
invested sector and the private sector now represents 60% of Vietnam's 
economy.
    These changes are not only strengthening market access for American 
companies in Vietnam, they are also greatly benefiting the people of 
Vietnam. Per capita has nearly doubled since the late 1990's, from less 
than $250 in the late 1990's to $440 in 2003. Vietnam was removed from 
the U.N. Conference on Trade and Development (UNCTAD) list of least 
developed countries last year. Their purchase power parity calculation 
puts per capita at over $2,000. Over the last decade, UNCTAD estimates 
that Vietnam has reduced the percentage of families living below the 
official poverty level to less than 30%, from an initial rate of 70%. 
The number of people below the much lower ``food poverty line,'' has 
also declined from 25% to 15%, indicating that the very poorest 
segments of the population have experienced improvements in their 
living standards. The World Bank also reports that the poverty rate has 
fallen by half in the past ten years, one of the sharpest declines of 
any country.
    The BTA contributes to lifting Vietnam out of endemic poverty by 
increasing trade, investment, and development in Vietnam, as well as 
promoting market reforms, including greatly expanded trading rights. 
Furthermore, by expanding trade and extending the rule of law in 
Vietnam, the BTA encourages access to information and greater 
transparency for domestic enterprises as well. Vietnam has great 
potential for development as a significant trading partner worldwide. 
Over half the 80 million population is under the age of 25, and the 
literacy rate is over 90%. The work ethic, entrepreneurial talent, and 
emphasis on education is strong. The economic continues to grow at an 
impressive rate year after year, last year's accomplishment of 7% 
growth is expected to be repeated in 2004.
    To assist with implementing this very important Agreement, U.S. 
Government programs provide tremendously affective technical assistance 
to help implementation of the Bilateral Trade Agreement. Through a 
grant from the U.S. Agency for International Development (USAID) and 
the added support and participation of our member companies, the Trade 
Council's Education Forum has been involved in this program helping to 
provide technical assistance on commercial and legal reform to 
Vietnamese ministries, government agencies, and businesses with 
portfolios covering issues raised by the BTA and the WTO. AID has 
additional extremely valuable programs on commercial law reform and 
business development that contribute greatly to overall understanding.
    The United States should continue to be involved in this process. 
It is in our interest to see an economically healthy and 
internationally engaged Vietnam. American involvement in the process of 
economic reform is most welcome in Vietnam and will be extremely 
important to overall development in the long run. American companies 
set high standards for trade, investment, labor and business practices. 
American technology is greatly admired in Vietnam. American companies 
are actively involved in training and technical assistance programs in 
Vietnam, through the Trade Council and individually. American products 
are popular. U.S. Government programs are effective. Our business 
community, particularly with the extensive involvement of the 
Vietnamese-American businesses, continues to play a key role in the 
normalization of economic relations and BTA implementation, and look 
forward to WTO accession.
    Vietnam has made solid progress on the political reforms as well. 
Following the initial ``road map'' for diplomatic and economic 
normalization laid out under the Bush administration in April 1991, the 
bilateral relationship on many fronts has made a great deal of progress 
and been strongly supported on a bipartisan basis by Congress. With 
Congressional veterans such as Senators John McCain and John Kerry 
leading the way, a broad based group of Senators and Congressmen have 
supported the step by step process of normalization. In 1998 the first 
waiver of the Jackson-Vanik Amendment was issued, which Congress upheld 
by a vote of 260 in favor and 163 opposed. The initial Jackson-Vanik 
waiver in 1998 allowed trade support programs, such as loans from the 
Overseas Private Investment Corp (OPIC), the Export-Import Bank (EXIM) 
and other credits for American business to establish operations in 
Vietnam. In December 1999, EXIM and the State Bank of Vietnam completed 
the framework agreements, which allowed EXIM to begin operations in 
Vietnam. Congress renewed the waiver in 1999 by a vote of 297 in favor 
and 130 opposed. In 2000 the margin increased positively again to 332 
in favor and only 91 opposed. The 2001 vote was 324-91 in favor of 
renewing the waiver: the 2002 vote was 338-91.
    U.S. policy pegged the Jackson-Vanik waiver to progress on the 
Resettlement Opportunity for Vietnamese Returnees (ROVR) program 
specifically and immigration in general. Although it was extremely 
difficult to reach agreement initially, the implementation of the ROVR 
program has been fairly smooth. The State Department reports that the 
Government of Vietnam has cleared all but a handful of the nearly 
20,000 ROVR cases. The Orderly Departure Program overall has also been 
successful. Approximately half a million Vietnamese have come to the 
United States under ODP, and only a small number of ODP cases remain to 
be processed. Since the initial waiver of the Jackson-Vanik amendment, 
the Vietnamese have allowed all remaining ODP cases--including the 
Montagnard cases which are of particular concern to the U.S.--to be 
processed under the new and more responsive system developed initially 
just for ROVR cases.
    In addition, the U.S. and Vietnam are jointly pursuing answers on 
the 1429 missing in Vietnam, of the 1875 missing in Southeast Asia. 
Since the end of the war, 708 Americans have been accounted for, 
including 492 in Vietnam. Additionally, the Department of Defense has 
confirmed the fate of all but 35 of 196 individuals in the ``last known 
alive'' discrepancy cases. The U.S. has maintained a permanent staff to 
visit crash sites and interview witnesses throughout the country since 
1993, with teams of experts going to Vietnam monthly. The U.S. and 
Vietnam have provided reciprocal access to information on MIAs from the 
war and have conducted 75 Joint Field Activities on missing cases since 
1988. President Bush most recently certified Vietnam issuing a 
determination that Vietnam ``is fully cooperating in good faith with 
the United States.'' While borne out of controversy, suspicion, and 
anguish, it has become a model program, greatly supported by veterans 
and families, and an excellent example of the benefits of engagement.
    In November 2000, President Clinton became the first U.S. President 
to visit Vietnam since the end of the war. During the President's trip 
ten new business partnerships were announced, and our two countries 
concluded numerous bilateral agreements. One of these was an Agreement 
on Scientific and Technological Cooperation to facilitate cooperation 
between American and Vietnamese scientists in areas such as health, 
technological innovation and entrepreneurship, disaster mitigation, and 
marine and water resource management. Increased cooperation in the 
prevention and treatment of infectious diseases, including typhoid 
fever and HIV/AIDS, will strengthen Vietnam's ability to meet critical 
health challenges. Environmental projects operate through the U.S. Asia 
Environmental Partnership, and cooperation grows on Agent Orange 
research. The Vietnam Education Foundation was established. The 
Fulbright program was strengthened.
    To look at labor issues, the U.S. and Vietnam also signed a 
Memorandum of Understanding on Labor in November 2000. The MOU has 
resulted in an annual dialogue on labor rights and includes a $3 
million technical assistance program working with the ILO to 
strengthening labor protection, skills training, employment services, 
social insurance and safety nets, employment of the disabled, 
industrial relations and child labor. The child labor provisions focus 
on street children and child trafficking. Workplace education and 
prevention programs on HIV/AIDS are also including in the MOU. These 
projects are ongoing, and in 2003 Vietnam passed several new amendments 
to the Labor Code. The use of collective bargaining also grew in 2003, 
with an estimated 60% use in foreign owned enterprises and 40% and 
growing in private companies.
    The Labor Code incorporating standards of internationally 
recognized worker rights and ILO conventions. The Labor Code stipulates 
a number of workers' basic rights including: freedom to chose employer 
(Article 30), standard work week (Article 68), overtime limits and pay 
(Article 61), leave, holidays, and rest (Article 71, 73, 74 & 78), 
minimum wage, bonuses (Article 64), maternity leave (Article 114 & 
144), severance entitlements (Article 17 & 42), workplace safety 
(Article 97 & 100), etc. In recent years, the Government of Vietnam has 
sent labor experts to the U.S., the UK, Singapore, New Zealand, South 
Korea, and Hong Kong in its efforts to update the Code.
    In April 2002, Vietnam's National Assembly passed the Law on 
Amendment of and Addition to a Number of Articles of the Labor Code. 
The Assembly made changes and revisions to 56 articles of the Labor 
Code, updating and amending existing law and clarifying points, which 
had been unclear in the previous regulations. In a major shift, foreign 
enterprises were allowed to directly recruit and hire staff without 
going through employment agencies and middlemen. The new code also 
clarifies regulations on wage and salary scales, which had been the 
subject of some dispute under existing Circular 11. Some 56 amendments 
were made including articles 17, 27, 41, 69, 85, 140 and 166.
    Since 1992, Vietnam has ratified 15 ILO conventions, including 
three of the ILO's eight core human rights conventions: No. 100, equal 
pay for men and women for work of equal value (ratified by Vietnam in 
1997); No. 111, prohibiting discrimination in employment (1997); and 
No. 182, prohibiting the worst forms of child labor (2000). Currently, 
the Vietnamese are working on a plan to gradually ratify the remaining 
core ILO conventions and hope to ratify both forced labor conventions 
and the minimum age convention soon. With offices in Hanoi, the ILO has 
24 ongoing projects, 6 of which the ILO defines as promoting 
fundamental principles and rights.
    Another important issue is the rights of women. Woman share an 
equal status to men under the law in Vietnam and continue strides to 
gain equality in practice. They are free to practice and participate in 
any religion, work any job, attend school at all levels, drive, vote, 
participate in government, and hold top leadership positions in 
universities, businesses, and in national and provincial governments. 
In the National Assembly, for example, women hold 27% of the total 
seats ranking Vietnam second in the Asia Pacific region and 9th 
worldwide for woman in the National Assembly. Several American women's 
rights groups and foundations have had exchanges and programs in 
Vietnam.
    Our relationship has strengthened in other areas as well. American 
travel to Vietnam has growing dramatically. Veterans, tourists, 
business people, and family members are traveling, working and involved 
in charitable activities in Vietnam. Veterans groups organize visits 
for their members and their families. Remittances from overseas 
Vietnamese are estimated at $2-3 billion annually. In 1997 Vietnam 
issued 98,000 visas for Americans to travel to Vietnam, over 66,000 for 
Vietnamese Americans. In 2000 the total was 152,928 visas, 
approximately 137,000 of which were for Vietnamese Americans. In 2001 
this number grew to 230,470. In 2003 over 300,000 Americans traveled to 
Vietnam, \2/3\ of that number were Vietnamese-Americans. Over Tet this 
year in January 2004, over 100,000 visas were issues--mostly for 
Vietnamese-Americans. A most historic visit was made this year by 
former President Nguyen Cao Ky. This first visit back to Vietnam by a 
leader of the South Vietnam Government since the end of the war was 
widely covered by both U.S. and Vietnamese press.
    Since our two countries set out on the path to normalized 
relations, the U.S. and Vietnam have enjoyed many successes, while also 
suffering a few setbacks. The BTA has been overall extremely successful 
though not without problems. Seafood exports to the U.S. have risen 
dramatically from Vietnam but catfish and shrimp imports have been hit 
with anti-dumping suits from U.S. producers. Textile production in 
Vietnam was cut nearly in half with the quota levels imposed by the 
U.S. U.S. automotive companies are concerned about recent tariff level 
increases in Vietnam. The IPR laws are greatly improving while 
enforcement lags behind. Licensing of U.S. investment in services is 
moving slowly. Some Vietnamese products have lost seemingly legitimate 
copyright protection in the U.S. Both sides have a list of complaints 
that the BTA Joint Committee works through--a not so unusual trade 
relationship.
    And as Vietnam entered the coffee export market in the late 1990's, 
almost overnight it became the second largest coffee exporter after 
Brazil, and coffee prices plummeted. Serious land right disputes and 
workers dislocation emerged in the Highland where ethnic, religious and 
political differences are also long standing. Very serious disturbance 
happened in early 2001. There is no question that the remote areas of 
the central highlands and northwest areas need additional economic 
development assistance and greater religious freedom, and since the 
disturbances in 2001, the national and provincial governments have made 
efforts--successful efforts--to reduce the economic hardship in the 
Highlands, crack down on local government corruption and repression, 
and have made some progress for greater religious freedom. And more 
needs to be done.
    The situation in the Highlands is extremely complex, and 
difficulties there cannot be reduced to one issue or one event. Vietnam 
is a country of 80 million with 54 ethnic minorities, of which the Kinh 
ethnic group makes up 87% of the population. There is overall harmony 
between the ethnic and religious groups, but prejudices and suspicions 
do exist. While no ethnic group has separate territory, the nearly 10 
million minority groups are largely located in the central highlands 
and northwest provinces, and tensions have risen in the Highlands as 
the coffee boom drew Kinh farmers into the area. Some minority groups 
over the years have had aspirations for independence or autonomy. 
Military and political movements for separate states, such as FULRO as 
an organization and Dega as an independent republic, date back to the 
war period. These movements exist today--possible more outside Vietnam 
than inside--but the disturbances in 2001 are believed by some, fairly 
or unfairly, to have been aided by, funded by, or instigated by these 
movements.
    Added to these developments is the growth of evangelical religion 
in Vietnam and the particular new style of house churches. And yet even 
here, some progress has been made recently for evangelical worship.
    Vietnam now formally recognizes six religions--Buddhist, Catholic, 
Cao Dai, Hoa Hao, Islam and Protestant faiths. According to the U.S. 
estimates, approximately 50 percent of the population follow Buddhist 
traditions, with some 33,000 clergy and 14,600 places of worship.
    Catholics make up slightly over 8% of the population making Vietnam 
has the second largest Catholic population in Asia. Only the 
Philippines have more Catholic worshipers, and freedom of worship is 
evident everywhere on Sundays. Relations with the Vatican are well 
established, discussions are ongoing for a papal visit, and a second 
Vietnamese Cardinal was ordained in October 2003. There are now two 
Cardinals, 1 Archbishop, 36 bishops, 2410 priests and 11,147 parish 
priests, and 4,390 students in seminary both in Vietnam and overseas. 
There are an estimated 6000 Catholic churches in Vietnam and over 1000 
charities. Complaints include the government's limitation on the number 
of priests ordained, though these numbers continue to grow on an annual 
basis and with a reported three times the number ordained in 2003 over 
2002. The U.S. religious freedom assessment of Vietnam reports an 
easing of restrictions on religious materials.
    In our mid-January 2004 discussion with the new Cardinal, Jean-
Baptiste Pham Minh Man, we asked him about freedom of religion in 
Vietnam. His request for further freedom for the church was in the area 
of charitable work and education. Limited now to orphanages, some 
charities, and schools for the very young, the Cardinal expressed his 
strong desire that the church be able to open schools at a all levels 
and establish charities to work with those victims of ``social evils'' 
such as drug addicts, the homeless, and sex workers, particularly in 
HCMC.
    The Protestant church is seeing the fastest growth rate. Possibly 
due to close relationships with organizations outside Vietnam and radio 
programs coming in from the region, the number of followers of 
Protestantism, particularly Evangelical Christians is growing. 
Protestants are estimated to be 1.2 percent of the population, with 
half of that number being evangelical worshipers and two thirds of the 
number from minority groups. Estimates vary, but there are estimated to 
be 800,000--1 million Protestants in Vietnam, up from some 200,000 in 
the pre-war period with 250,000--300,000 living in the Highlands and 
200,000 living in the Northwest. In the Highlands most are in the 
evangelical faith community. While the northern Evangelical Churches 
have had an organization since the 1960's, a very important development 
and sign of progress was the establishment of the Southern Evangelical 
Church of Vietnam (SECV) in April 2001, with several hundred churches 
now registered. Further progress came in 2003 when the SECV opened a 
government-sanctioned theological school in HCMC in February 2003.
    It may be useful to note to the Committee that there are dozens of 
religious based American organizations working in Vietnam including: 
The Quakers, Mennonites, Catholic Relief Service, Church World Service, 
World Vision, Maryknoll, Lutheran World Mission, Adventist Development 
and Relief Agency, Christian and Missionary Alliance, Latter Day Saint 
Charities, Samaritans Purse, Assemblies of God, and so on whose 
testimony might also be helpful. There many dozen NGO groups working in 
Vietnam with excellent projects.
    In closing, my argument to you today, is that the bi-partisan 
policy of four administrations of a step-by-step process of engagement 
and normalizing relations with Vietnam has produced positive results 
for Americans and Vietnamese. It has served the economic and diplomatic 
interests of the U.S., human rights concerns, and has resolved some of 
the toughest war legacy issues. There are believed to be 40-60 
Vietnamese in prison for what the U.S. considers political or religious 
beliefs or actions. While this is 40-60 too many, this is a number that 
further U.S. engagement can help address.
    Vietnam and the U.S. share a tragic history, which both countries 
remain mindful of, and yet both sides work hard to build a new future. 
Normalization of relations, a growing economy, relations and engagement 
with the outside world, and a growing sense that their future and 
national security is secure, these are what has made Vietnam a country 
making progress. We must look at Vietnam as a whole--good and bad. We 
must fairly assess progress annually. Of course not everyone in the 
U.S. and not everyone in Vietnam supports our normalization goals or 
the improving of ties. Given our history, that is more than just 
understandable. Given our history, it is all the more remarkable that 
it has been veterans and Vietnamese-Americans that have often led the 
way for normalization.
    U.S. involvement in a market based economy and on the whole range 
of programs that make up a fully normalized relationship will continue 
to contribute to Vietnam's increased openness, increased transparency 
in government, a rise in living standards, greater international 
economic integration, and political development. But more important to 
the U.S., this policy of normalization has also ensured that American 
business and diplomatic goals are met and that American ideals are 
advanced. The post war-embargo was lifted ten years ago this month. How 
far we have come in those ten years are proof the policy works, year 
after year.
    On behalf of the members of the U.S.-Vietnam Trade Council, we urge 
the continued engagement with Vietnam for the benefit of citizens of 
both countries and as an example to the world.

    Senator Brownback. Thank you, Ms. Foote. Mr. Dinh, thank 
you for joining us.

   STATEMENT OF VIET D. DINH, DEPUTY DIRECTOR, ASIAN LAW AND 
        POLICY STUDIES, GEORGETOWN UNIVERSITY LAW CENTER

    Mr. Dinh. Thank you very much, Senator, for the honor of 
being here. I want to start by first thanking you for your 
personal statement and your personal concern on granting 
Priority II status to the 1,800 Vietnamese refugees still 
currently fateless in the Philippines. I want to report that 
thanks to your efforts and the efforts of your staff, Ms. 
Hannah Royal and Sean Woo, my colleague, Hoi Chin, and others 
working on this issue had very productive meetings with Kelly 
Ryan, Deputy Assistant Secretary of State, and also with Laura 
Parsky at the National Security Council.
    Whatever the decision may be, we appreciate the effort for 
a constructive exchange and also for us to present our case, 
why this is not only a wise policy decision but also a 
humanitarian one. We look forward to a similar opportunity to 
discuss the issue and to have a constructive dialogue with the 
Bureau of Citizenship and Immigration Services when that comes.
    I also want to thank you for your continuing interests on 
the issues of common interest, that is, United States-Vietnam 
relations and also religious freedom around the world.
    Mr. Chairman, the 20th century may have brought the United 
States military defeat in Indochina, but it also marked the 
conclusive triumph around the world of democratic capitalism 
over totalitarian communism. Engaging with post-war Vietnam 
diplomatically and economically serves the same purpose as 
military intervention during the conflict in a different era.
    That purpose, now as then, is to promote United States 
strategic interests, respect for the rights of man, and the 
betterment of life for people everywhere. This is thankfully no 
longer a war of bullets and bombs, but rather a contest of 
ideas and institutions. The United States negotiated and 
ratified an effective bilateral trade and investment treaty. We 
need to continue to encourage and assist Vietnam to implement 
the agreement fully and according to a strict timetable. 
Completion of this process would provide the stable, 
transparent, and accountable economic infrastructure that is 
necessary for Vietnam's accession to the WTO and its continued 
progression toward a market-oriented economy, a progression 
that I personally support for the sake of the Vietnamese people 
and for all of the economic benefits that Ms. Foote has 
highlighted.
    But free markets are only one-half of the democratic 
capitalism ideal. Free peoples are the other half, and on this 
latter score, the picture is bleak. The U.S. Department of 
State in its 2002 and 2003 human rights report, summarizes well 
the current situation, and I quote:

          The Government of Vietnam continued to repress basic 
        political freedoms, including freedoms of speech, 
        press, assembly, and association, arbitrarily detaining 
        its citizens, including detention for peaceful 
        expression of political and religious views, restrict 
        activities of registered and non-registered religious 
        groups, and reportedly committed numerous egregious 
        abuses in the central highlands.

    You know personally the story of Father Ly, and much has 
been said of his plight. I want, however, to remind all of us 
the statement that he submitted to the U.S. Commission on 
International Religious Freedom in 2001 that was the basis of 
the charge and his imprisonment currently. This is a quotation 
from his written statement, and I quote:

          There is no freedom of speech in my country. 
        Churches, of course, have none. This kind of statement 
        I am presenting to you cannot be circulated in Vietnam 
        because no photocopying store or printing shop would 
        dare to reproduce it. Nobody dares to keep it, fearing 
        for his own life and the safety of his family. Those 
        who dare must be prepared for martyrdom.

    Unfortunately, his words were prophetic.
    Fortunately, efforts from the United States and elsewhere, 
to persuade Vietnam to change its ways, have been met with 
measured resistance but also with some isolated successes. Mr. 
Chairman, you noted that during your recent visit to Vietnam 
you had a visit with Father Ly. Although it may seem a very 
small thing to us, official permission for that meeting in and 
of itself is a significant development, one that I believe 
would not have been possible absent your persistent efforts to 
highlight religious persecution in Vietnam and elsewhere. 
Likewise, the release of Father Ly's niece and soon-to-be 
release of his nephews would not have happened without the 
efforts of Ambassador Hanford and the administration.
    The current picture in the U.S.-Vietnam interaction thus is 
best illustrated by a tension, a tension between Vietnam's 
desires to reap the benefits of the global economy and its 
reticence to provide even minimal protection of civil 
liberties, most notably its denial of basic religious freedoms.
    As a proponent of free trade and free markets, I understand 
the arguments of those who would advocate for the decoupling of 
these two issues. However, I believe that our nation's interest 
is best served by a concurrent effort to help Vietnam enhance 
its trade relations and also persuade, and where necessary, to 
pressure Vietnam to improve its record on the protection of 
basic human rights.
    We should seek all opportunities and exhaust all avenues to 
coax and cajole Vietnam to improve its human rights record and 
to end its campaign of religious persecution. At this time, the 
best opportunity is presented by Vietnam's desire to accede to 
the World Trade Organization by 2005. We should not squander 
that opportunity, but rather use it to reaffirm our basic 
principles and to end religious persecution in Vietnam. Thank 
you.

    [The prepared statement of Mr. Dinh follows:]

Prepared Statement of Viet D. Dinh, Professor of Law, Deputy Director, 
     Asian Law and Policy Studies, Georgetown University Law Center

    Mr. Chairman and Members of the Subcommittee:
    Thank you very much for this opportunity to comment on Vietnam's 
ongoing effort to rejoin the global community. The progress of that 
effort is defined by two dynamics that are often in tension: Vietnam's 
desire to reap the benefits of the global economy, most notably through 
accession to the World Trade Organization, and its reticence in 
adopting minimal protections of civil liberties for its citizens, most 
notably its denial of basic religious freedoms.
    As a proponent of free trade, I understand the arguments of those 
who would advocate for the decoupling of these two issues. However, I 
believe that our nation's interest is best served by concurrent efforts 
to help Vietnam enhance its trade relations and also to persuade and, 
where necessary, to pressure Vietnam to improve its record on the 
protection of basic human rights. We should seek all opportunities and 
exhaust all avenues to coax, cajole and coerce Vietnam to improve its 
human rights record and to end its campaign of religious persecution. 
At this time, the best opportunity is presented by Vietnam's desire to 
join the global economy.
    Although, by many measures, the human rights situation in Vietnam 
has deteriorated in recent years, there is also some cause for 
optimism: Continued economic and diplomatic pressure may lead Vietnam 
to recognize that it cannot join the global economy and live in 
political isolation at the same time.
    Since the introduction of doi moi,\1\ Vietnam has been struggling 
with the tension between its desire to reap the benefits of an open, 
market-oriented economy and to maintain a closed, repressive political 
system. Even as its self-imposed goal of entering the WTO by January 
2005 looms closer, the Communist Party refuses to relinquish its grasp 
on numerous state-owned industries, and continuing discriminatory 
policies and tariffs have stifled the excitement of many foreign 
investors. In May 2003, these policies and practices led Seung Ho, 
chairman of the WTO-Vietnam working party, to proclaim that it would 
take a ``quantum jump'' for Vietnam to obtain WTO membership by 
2005.\2\
---------------------------------------------------------------------------
    \1\ The Sixth Communist Party Congress instituted doi moi 
(renovation) in December 1986 as a program to reform and revitalize 
Vietnam's then-stagnant economy. See Viet D. Dinh, Financial Reform and 
Economic Development in Vietnam, 28 Law & Pol'y Int'l Bus. 857, 866 
(1997).
    \2\ Vietnam Starts Its ``Quantum Jump'' But Still Some Way to Go, 
WTO News (Dec. 12, 2003), available at http://www.wto.org/english/
news--e/news03--e/acc--vietnam--12dec--e.htm (last viewed Feb. 8, 
2004).
---------------------------------------------------------------------------
    Any delay in joining the WTO would have serious economic 
consequences for Vietnam. On January 1, 2005, the United States and the 
European Union are scheduled to drop textile quotas for WTO members. 
Textiles are Vietnam's top export, with 2003 earnings estimated at $3.6 
billion.\3\ Largely because of the U.S.-Vietnam Bilateral Trade 
Agreement,\4\ textiles make up more than half of the $4.2 billion of 
exports Vietnam sends to the United States.\5\ If Vietnam does not 
accede to the WTO by January 1, 2005, when the WTO drops textile 
quotas, most of this trade would shift to WTO members such as China and 
the Philippines.
---------------------------------------------------------------------------
    \3\ Frederik Balfour, Time Is Running Out, Bus. Week 24 (Dec. 1, 
2003).
    \4\ Bilateral Trade Agreement to Normalize Trade Relations with 
Vietnam, Oct. 16-Nov. 29, 2001, U.S.-Vietnam, 115 Stat. 268, available 
at http://www.ustr.gov/regions/asia-pacific/text.pdf (last viewed Feb. 
8, 2004).
    \5\ Import totals for January through November 2003. See U.S. Int'l 
Trade Comm., U.S. Imports for Consumption at Customs Value from Vietnam 
(2003), available at http://dataweb.usitc.gov/scripts/cy--m3--
run.asp?Fl=m&Phase=HTS2&cc=5520&cn=Vietnam (last viewed Feb. 8, 2004).
---------------------------------------------------------------------------
    Vietnam has taken significant steps to remedy many of the 
deficiencies that pose barriers to its accession to the WTO.\6\ And 
market pressures will continue to nudge Hanoi to loosen its grasp on 
the country's economy. For example, China's entry into the WTO helped 
persuade Hanoi ultimately to sign and ratify the U.S.-Vietnam Bilateral 
Trade Agreement. Although implementation has been sporadic, the 
Agreement remains the best roadmap toward improvement of the trade and 
investment regime in Vietnam. The United States Government, both in 
this and the preceding administration, should be applauded for its 
steadfast insistence on the key terms of the Agreement. We should 
continue efforts to encourage and assist Vietnam to implement the 
Agreement fully and thereafter to accede to the WTO.
---------------------------------------------------------------------------
    \6\ Vietnam Starts Its ``Quantum Jump'' But Still Some Way to Go, 
WTO News (Dec. 12, 2003), available at http://www.wto.org/english/
news--e/news03--e/acc--vietnam--12dec--e.htm (last viewed Feb. 8, 
2004).
---------------------------------------------------------------------------
    However, given Vietnam's insistence that trade be decoupled from 
politics,\7\ it is unrealistic to expect that improvements in the 
country's human rights situation would follow inexorably from enhanced 
economic relations and open access to the world trade regime. Open 
markets have challenged the Communist Party's ideological commitment to 
a command and control economy, but the road towards market oriented 
capitalism has not led the Party to relinquish control over the 
Vietnamese people.
---------------------------------------------------------------------------
    \7\ Upon signing the Bilateral Trade Agreement, the Vietnamese 
Government emphasized `` `nonintervention in each other's internal 
affairs,' a phrase that responds in particular to American criticism of 
human rights standards in Vietnam.'' Seth Mydans, Relations at Last 
Normal, Vietnam Signs U.S. Trade Pact, N.Y. Times at A8 (Nov. 29, 
2001).
---------------------------------------------------------------------------
    This control often manifests itself through sheer oppression. The 
Vietnamese are denied even the most basic freedoms: freedoms of speech, 
the press, religion, expression and assembly. And the courts mete 
arbitrary sanctions under opaque laws and ignored constitutional 
protections.\8\
---------------------------------------------------------------------------
    \8\ These ignored constitutional provisions include Article 69, 
which specifically provides: ``The citizen shall enjoy freedom of 
opinion and speech, freedom of the press, the right to be informed, and 
the right to assemble, form associations and hold demonstrations in 
accordance with the provisions of the law.'' Vietnam Const. 
(Constitution of 1992) art. XXXXXXIX, available at http://
www.vietnamembassy-usa.org/learn/gov-constitution5.php3 (last viewed 
Feb. 8, 2004).
---------------------------------------------------------------------------
    The human rights situation in Vietnam is well-documented. The 
Department of State\9\ and organizations like Amnesty International 
\10\ and Human Rights Watch \11\ have carefully chronicled the behavior 
of the Vietnamese Government toward its citizens. Of particular concern 
is the government's record of repressing religious activity and 
persecution of religious leaders and clergy, brave men and women of 
faith like Father Thadeus Nguyen Van Ly.
---------------------------------------------------------------------------
    \9\ See U.S. State Dept., Supporting Human Rights and Democracy: 
The U.S. Record 2002-2003 (2003) [hereinafter Supporting Human Rights 
and Democracy], available at http://www.state.gov/g/drl/rls/shrd/2002/ 
(last viewed Feb. 8, 2004); U.S. State Dept., The International 
Religious Freedom Report of 2003 (2003), available at http://
www.state.gov/g/drl/rls/irf/2003/24327.htm (last viewed Feb. 8, 2004).
    \10\ See, e.g., Amnesty International, Library, Vietnam, available 
at http://web.amnesty.org/library/eng-vnm/news (last viewed Feb. 8, 
2004).
    \11\ See, e.g., Human Rights Watch, Asia, Vietnam, available at 
http://www.hrw.org/doc?t=asia&c=vietna (last viewed Feb. 8, 2004).
---------------------------------------------------------------------------
    Father Ly was ordained in 1974. In 1982, he drew the ire of the 
Communist Party after attempting to lead a religious pilgrimage.\12\ 
Placed under arrest, and confined to his birth village, Father Ly 
defied the authorities to return to his church. The police made nine 
successive attempts to arrest Father Ly, thwarted each time by his 
parishioners. On the tenth attempt, Hanoi sent roughly 200 police 
officers to overcome the opposition, and Father Ly was arrested in May 
1983. For his defiance, Father Ly was sentenced to 10 years' 
imprisonment. He served 9 of those years before the authorities 
released him in 1992.
---------------------------------------------------------------------------
    \12\ Henry Kamm, Anti-Vatican Plan Reported In Hanoi, N.Y. Times at 
15 (Mar. 4, 1984).
---------------------------------------------------------------------------
    In 2000, Father Ly again spoke out about the government's religious 
intolerance. In March of 2001, at the invitation of the U.S. Commission 
on International Religious Freedom, Father Ly submitted written 
testimony to highlight religious persecution in Vietnam. His testimony 
to the Commission was prophetic of his own fate:

          There is no freedom of speech in my country. Churches, of 
        course, have none. This kind of statement I am presenting to 
        you cannot be circulated in Vietnam because no photocopying 
        store or printing shop would dare to reproduce it. Nobody dares 
        to keep it fearing for his own life and the safety of his 
        family. Those who dare must be prepared for martyrdom.

    In response to this and other statements, the official Vietnamese 
news media denounced Father Ly as a traitor.
    On October 20, 2001, Father Ly was sentenced to 15 years' 
imprisonment, 2 years for violating his probation, and 13 years for 
``undermining the great unity.'' \13\ In September of 2003, the 
government also jailed three of Father Ly's relatives, accusing them of 
providing information about religious conditions in Vietnam to 
``reactionary'' organizations in the United States.\14\ Their crime was 
simply to call attention to Father Ly's plight and to advocate for his 
release.
---------------------------------------------------------------------------
    \13\ Vietnam Imprisons An Outspoken Priest, N.Y. Times at 1A19 
(Oct. 21 2001).
    \14\ Amy Kazmin, Relatives of Priest Jailed in Vietnam, Financial 
Times 13 (Sept. 11, 2003).
---------------------------------------------------------------------------
    I think the U.S. State Department in its annual Human Rights Report 
summarizes well the current situation in Vietnam, ``The Government of 
Vietnam (GVN) continued to repress basic political freedoms including 
freedoms of speech, the press, assembly, and association; arbitrarily 
detain its citizens, including detention for peaceful expression of 
political and religious views; restrict activities of registered and 
non-registered religious groups; and reportedly committed numerous 
egregious abuses in the central highlands.'' \15\
---------------------------------------------------------------------------
    \15\ Supporting Human Rights and Democracy, supra note 9.
---------------------------------------------------------------------------
    The State Department report also suggests a silver lining aHmong 
the dark clouds, that United States efforts to pressure Vietnam to 
improve its record on religious persecution has led to some, albeit 
limited, success:

          The USG consulted with GVN authorities at all levels 
        throughout the year on human rights issues, including hosting a 
        U.S.-Vietnam Dialogue on Human Rights. As a result of our 
        effort, the GVN allowed numerous people to depart Vietnam, 
        including over two dozen Montagnard families, a Chinese 
        national who had entered Vietnam illegally, and a prominent 
        actor who had been harassed and detained. Other intervention 
        resulted in improved GVN treatment of some other persons of 
        concern, such as a controversial Hoa Hao monk.\16\
---------------------------------------------------------------------------
    \16\ Supporting Human Rights and Democracy, supra note 9.

    Although the U.S. efforts have been met with measured resistance, 
their limited success demarcates a path for improvement in the human 
rights situation in Vietnam: The United States should seek all 
opportunities and exhaust all avenues to persuade and, where necessary, 
to pressure Vietnam to improve its human rights record and to end its 
campaign of religious persecution. Right now, the best opportunity is 
presented by Vietnam's demonstrated need and express desire to accede 
to the World Trade Organization and join the global economy.
    The promise of a two-pronged approach, a concurrent focus on both 
enhanced trade and improved human rights, is underscored by the 
Vietnamese Government itself. Father Ly was denounced and jailed as a 
traitor not simply for highlighting Vietnam's human rights abuses, but 
also because he urged the United States to link religious freedom to 
the ratification of the Bilateral Trade Agreement.\17\ And, Mr. 
Chairman, I understand that your recent trip to Vietnam included a 
visit with Father Ly. Although it may seem a small thing to us, 
official permission for that meeting, in and of itself, is a 
significant development-one that I believe would not have been possible 
absent your persistent efforts to highlight religious persecution in 
Vietnam.
---------------------------------------------------------------------------
    \17\ Vietnam Imprisons An Outspoken Priest, N.Y. Times at 1A19 
(Oct. 21 2001).
---------------------------------------------------------------------------
    To be sure, the WTO accession process does not explicitly 
accommodate non-trade interests,\18\ and I am not suggesting that the 
United States invoke its non-application right under Article XIII of 
the WTO agreement.\19\ However, I believe that we should send a clear 
and consistent message to Vietnam that United States support for its 
expeditious accession to the WTO depends on concrete improvements in 
its human rights record and an end to religious persecution.
---------------------------------------------------------------------------
    \18\ See Viet D. Dinh, Joining the Club: The Dynamics of Accession 
to the World Trade Organization, 12-14 (draft manuscript on file with 
the author).
    \19\ WTO Agreement art. XIII, para. 1, provides that the WTO 
Agreement and related commitments Ashall not apply as between any 
Member and any other Member if either of the Members, at the time the 
other becomes a Member, does not consent to such application.
---------------------------------------------------------------------------
    I want to close by recounting the stakes in the future of U.S.-
Vietnam relations. The Twentieth Century may have brought the United 
States military defeat in Vietnam, but it also marked the conclusive 
triumph around the world of democratic capitalism over totalitarian 
communism.\20\ Engaging with post-war Vietnam diplomatically and 
economically serves the same purpose as military intervention during 
the conflict. That purpose, now as then, is to promote U.S. strategic 
interests, respect for the rights of man, and the betterment of life 
for people everywhere.
---------------------------------------------------------------------------
    \20\ See Viet D. Dinh, How We Won in Vietnam, 104 Pol'y Rev. 51 
(Dec. 2000 & Jan. 2001).
---------------------------------------------------------------------------
    This is no longer a war of bullets and bombs, but a battle of ideas 
and institutions. The United States has negotiated and ratified an 
effective bilateral trade and investment treaty. We need to continue to 
encourage and assist Vietnam to implement the Agreement fully and 
according to its strict timetable. Completion of this process would 
provide stable, transparent, and accountable economic infrastructure 
necessary for Vietnam's accession to the WTO and its continued 
progression toward a market-oriented economy.
    But free markets are only half of the democratic capitalism ideal; 
free peoples are the other half. The typical Vietnamese response to 
foreign pressure, that insistence on human rights intrudes on its 
domestic sovereignty, rings hollow. The Vietnamese leadership out of 
necessity has abandoned its Marxist-Leninist ideal of command and 
control collectivism. It now simply clings to political control. The 
same vigilance and pressure that dragged Vietnam onto the path toward a 
market economy need to be applied to weaken its grip on totalitarian 
authority.
    To keep in sight that we are continuing a larger effort for 
democracy and capitalism is to protect against erosion of core American 
ideals through the process of engagement. It is to work so that the 
Vietnamese people see the promise of freedom and democratic political 
expression in an economy and society protected by the rule of law.
    Equally important for America, continuing to push for the same 
ideals for which we fought the war puts the Vietnam conflict into the 
proper broader historical perspective. It helps to heal the lingering 
wounds of that sad era and leads Americans to appreicate that our 
soldiers did not die in vain, that our veterans are deserving of honor 
and gratitude, and that our triumphant ideals and institutions are 
worth fighting for.

    Senator Brownback. Thank you very much, Professor. I 
appreciate that statement.
    Mr. Eban is a Montagnard refugee. If he--will you be able 
to speak in English or we will have a translation?
    Translator. I'm the translator.
    Senator Brownback. Okay. If he has a written statement, 
you're welcome to present that rather than him having to read 
it and then you translate it, if you would like to do it that 
way.
    Translator. Mr. Chairman, he wrote something in his own 
language, and we translated into English, so I'm going to read 
this letter that he wrote on behalf of him.
    Senator Brownback. Good, good, thank you very much.

          STATEMENT OF RMAHY EBAN, MONTAGNARD REFUGEE

    Mr. Eban (speaking through a translator).  My name is Rhamy 
Eban. This is not my real name because I have family members in 
Vietnam, and I'm afraid the Vietnamese Communists would do 
something to my family.
    I would like to say thank you so much to Mr. Brownback for 
inviting me to come here to share with you what happened in my 
homeland. I don't speak English so I would like my translator 
to read the statement that I wrote.
    My name is Rhamy Eban, and I am a Montagnard refugee. I 
fled into Cambodia in 2001 for safety because of the crackdown 
against my people. I came to the United States on June 4, 2002. 
If the United States did not accept me, I would have been 
pushed back to Vietnam, where I would be killed or sent to 
jail. I would like to thank Senator Brownback for the 
opportunity to share my feelings about the plight of the 
Montagnards that related to the religious persecution in 
Vietnam.
    Mr. Chairman, I am representing more than a thousand 
Montagnard witnesses to what happened on March 10, 2001 at Plai 
Lao church in the central highlands of Vietnam.
    On March 9, 2001, over a thousand Montagnards from 
different villages and districts gathered for an all-night 
prayer service at Plai Lao church. It was the only village in 
the area that had a church building. It was a wooden structure 
with a thatched roof that villagers had started building in 
July 2000.
    Montagnard Christians in this area gathered there every 
Sunday and once a month; many villagers from other hamlets in 
Dusai district would gather at Plai Lao for a large church 
service. We started our prayer meeting at the church at 7:00 
p.m. and continued through the night. We were not afraid 
because we were just meeting to worship God, even though we 
knew what going to happen to us. We knew they would destroy the 
church when we finished building it.
    On March 10, 2001, at 4:00 a.m., suddenly over 600 soldiers 
entered the village with jeeps and several army trucks as the 
Montagnarders were praying in the church. These forces were 
wearing white helmets and uniforms with protective padding. 
They carried plastic shields, batons, electric shock devices, 
tear gas canisters, and guns (AK-47s). They used a loudspeaker 
and announced, ``We order you to stop praying and worshipping 
God. We know that the central highlands is your land, but we 
defeated the French and the Americans during the war. We are 
the owner of this land. If you want to take it back, you must 
call the French and the Americans to fight with us.''
    We knew what was going to happen, so we sent the women and 
girls out of the church; we thought the police wouldn't hit or 
arrest the women. Many men continued to pray in the church. At 
6:00 a.m., the Vietnamese were reinforced by thousands of 
soldiers under the command of--commander of--here is the 
picture----
    Senator Brownback. Hold that picture up again here so I can 
see it. Now what--and what is this a picture of again?
    Mr. Eban (speaking through a translator). This picture 
shows that the police arrested all the men and left the women 
alone.
    Senator Brownback. Yes, thank you.
    Mr. Eban (speaking through a translator). The police fired 
tear gas. Montagnard women with babies on their backs ran. 
Police used electric batons to shock many Montagnards and beat 
the Montagnard Christians until blood came out of their mouths 
and heads. They kicked their stomachs like animals and threw 
them into trucks like wood blocks. I was one of them. They hit 
my head, and I was close to dying. Many women were screaming, 
other with children in their arms were crying as well.
    As a result, 70 Montagnards were wounded, six people were 
injured badly, and police shot Rmahy Bly, and he died right 
there. Other Montagnard Christians were arrested and 
handcuffed. At noon, the police ordered the Vietnamese 
civilians in the area to ransack and destroy the church with 
axes. They used a cable tied to a vehicle to topple it, and the 
soldiers used their guns, batons force the Montagnard 
Christians to help take down the church. The police forced and 
gathered all the Montagnard Christians, including those who 
were tied and handcuffed to stay very close to the collapsed 
church. The police poured 5 liters of gasoline and 10 liters on 
machine oil and burned the church.
    Each of us was crying for the dead, for the wounded, and 
for the church. Then the police used loudspeaker and said, 
``you do not worship God, but you worship Americans. If you 
worship God, we burn God's church. Call your God to help you. 
If you worship Americans, call the Americans,'' and they all 
laughed, and made fun of us, regardless of the hundreds of 
Montagnards who were wounded and handcuffed and crying.
    After they burned the church, the police took some and put 
them in jail, and they also beat them in jail. Some of them, 
including pastor, were able to hide and escape; some of them 
are now here in the United States. I have a list of the 
prisoners that we have accounted for so far.
    Senator Brownback. We will put that in the record if that 
is acceptable to you to put in the record and it won't hurt 
them further.
    Mr. Eban (speaking through a translator). Yes. I will 
discuss it with my executive director, and we will give this 
list to you.
    Senator Brownback. Okay.
    Mr. Eban (speaking through a translator). And the last 
thing, since March 10, 2001, the Montagnard Christians were 
very afraid. Some fled and hid in the jungle. Many Montagnards 
have police assigned to their homes to watch them. The 
Montagnards are forced to feed these policemen. Because we 
cannot talk freely, we do not know exactly how many Montagnards 
have been killed and jailed. Many Montagnards have relatives 
who are missing.
    Mr. Chairman, we came here today to tell you the truth 
about the Montagnards' situation and how the Vietnamese 
Government treats the Montagnard people. We are treated like 
enemies in our own land. We pay a high price for a life of 
freedom. We pray that the Hanoi Government will hear our true 
voice, why we have no right to live as human beings, why we 
cannot worship God for our Christian faith freely, why we 
cannot receive humanitarian aid, why we cannot have the same 
opportunities in education and development as Vietnamese can, 
why we cannot get our family out of Vietnam.
    We sincerely hope that you will hear our true voice. The 
United States is the best hope for our families and our people 
in the central highlands. Thank you for the privilege of 
presenting my testimony. May God bless you and bless America.

    [The information referred to by Mr. Eban follows:]

List of the Montagnard Prisoners in Ba Sao Camp, Ha Nam Province, Hanoi

        [submitted by the montagnard human rights organization]

    After the protests and crack down on February of 2001, the local 
Government of Gialai and Kaklak Provinces continued to hunt down and 
bring to trial all Montagnard people who were involved with the 
demonstration or suspected of being involved.
    These trials were strongly supported by millions of the North 
Vietnamese people who are illegally living and occupying the 
Montagnards' land in the central highlands of Vietnam. The Montagnards 
have no legal counselor to defend their rights as human beings.
    Punishment out of all proportion to the crime should be illegal, 
but this is an opportune time for the Vietnam Government to get 
revenge. The Hanoi regime has ``Long Memory'' about the war and a long-
term plan to destroy the Montagnard people for the following reasons:

  1. The Montagnard people are the legal and rightful owners of the 
        central highlands of Vietnam. The French Federal Government in 
        Indochina recognized and granted the automony of the Montagnard 
        nation on May 27, 1946.

  2. The Montagnard people are Christians.

  3. The Montagnards fought alongside the French and American troops 
        against the North Vietnamese Communists during the Vietnam War 
        (1945-1975).

    The trials were held not only to punish the crime but because of 
hatred for the Montagnards and to continue the discrimination against 
the Montagnards through public retribution.
    This list was derived from an investigation by Human Rights Watch, 
from official Vietnamese sources as reported in the State media, and 
from the Montagnard relatives in the central highlands of Vietnam.
    All these prisoners were transferred to Ba Sao Camp, Ha Nam 
Province, Hanoi.
    On September 26, 2001, 9 Montagnards were sentenced to from 10 to 
12 years in prison. Their names are listed below:


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  1.....................................  Y-Bom (Jona)...............  Plei Kueng Grai, Pleiku,              12
                                                                        Gia Lai.
  2.....................................  Ksor Kroih.................  Plei Sol, Pleiku, Gia Lai..           11
  3.....................................  Siu Tinh...................  Plei Tot Byoc, Pleiku, Gia            11
                                                                        Lai.
  4.....................................  Siu Yui....................  Plei Lom Klah, Pleiku, Gia            11
                                                                        Lai.
  5.....................................  Siu Boch...................  Plei Lao, Pleiku, Gia Lai..           11
  6.....................................  Siu Un.....................  Plei Glung, Ayunpa, Gia Lai           11
  7.....................................  Ksor Poih..................  Pleiku, Gai Lai............           11
  8.....................................  Y-Nuen Buon Ya.............  Buon Ae Sup, Kak Lak.......           11
  9.....................................  Y-Rin Kpa..................  Buon Ae Sup, Dak Lak.......           11
----------------------------------------------------------------------------------------------------------------


    On October 18, 2001 and on October 24, 2001, 8 Montagnards were 
sentenced to from 7 to 8 years in prison and to 2 years probation, 
another 8 Montagnards were sentenced to from 3 to 6 years in prison 
with probation. Their names are listed below:


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  10....................................  Y-Nok Mlo..................  Buon Ama Thuot, Dak Lak....            8
  11....................................  Nay Druk...................  Buon Ae Sup, Dak Lak.......            7
  12....................................  Y-Phen Ksor................  Buon Sup, Dak Lak..........            7
  13....................................  Y-Bhiet Nie................  Buon Ama Thuot, Dak Lak....            6
  14....................................  Y-Tum Mlo..................  Buon Ama Thuot, Dak Lak....            8
  15....................................  Ksor Sun...................  Buon Jung, Dak Lak.........            5
  16....................................  Y-Bhiot Ayun...............  Buon Jung, Dak Lak.........            5
  17....................................  Y-Nuen Nie.................  Buon Jung, Dak Lak.........            3
  18....................................  Y-Wang Nie.................  Buon Brieng, Dak Lak.......            4
  19....................................  Y-Khu, Nie.................  Buon Tri, Dak Lak..........            5
  20....................................  Ksor Blung.................  Plei Breng 3, Pleiku, Gia              5
                                                                        Lai.
  21....................................  Ksor Alup..................  Plei Breng 2, Pleiku, Gia              4
                                                                        Lai.
  22....................................  Kao Kpa....................  Buon Sup B, Dak Lak........            8
  23....................................  Y-Tim Eban.................  Buon Dha Prong, Dak Lak....            8
  24....................................  Y-Coi B. Krong.............  Buon Ko Mleo, Dak Lak......            8
  25....................................  Y-Thomas Eya...............  Buon Bu Kak, Dak Lak.......            8
  26....................................  Y-Nglu.....................  Plei Glung, Ayunpa, Gia Lai            7
  27....................................  Siu Seo....................  Plei Joning, Ayunpa, Gia               7
                                                                        Lai.
  28....................................  Siu Un.....................  Buon Blec, Ea Hleo, Dak Lak            8
  29....................................  Siu Tel....................  Plei Ke, Ayunpa, Gia Lai...            5
  30....................................  Rmah Djoan.................  Plei Athai, Ayunpa, Gia Lai            5
  31....................................  Y-Bliet Ayun...............  Buon Jung, Krong Pac, Dak              3
                                                                        Lak.
----------------------------------------------------------------------------------------------------------------


    On January 28, 2002, 4 Montagnards were sentenced to from 4 to 7 
years in prison with probation; on August 10, 2002, 1 Montagnard was 
sentenced to 9 years; 7 additional people were sentenced, but the 
length of their sentences is unknown. Their names are listed below.


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  32....................................  Siu Beng...................  Plei Bitel, Pleiku, Gia Lai
  33....................................  Siu Be.....................  Plei Luh, Ea Hru, Gia Lai..            4
  34....................................  H'noch.....................  Plei Kly, Pleiku, Gia Lai..            6
  35....................................  Kpa H'ling.................  Plei Kly, Pleiku, Gia Lai..            6
  36....................................  Y-Sop Siu..................  Buon Sup, Dak Lak..........            6
  37....................................  Nong Kpa...................  Buon Sup, Dak Lak..........            4
  38....................................  Mrui Rahlan................  Buon Sup, Dak Lak..........            6
  39....................................  Y-Muk Nie..................  Buon Sup, Dak Lak..........            5
  40....................................  Y-Klah Buonya..............  Buon Poc, Dak Lak..........            *
  41....................................  Y-Mien Eban................  Buon Dha Ponng, Dak Lak....            *
  42....................................  Y-Tin......................  Buon Dha Ponng, Dak Lak....            *
  43....................................  Y-Klong Eban...............  Buon Dha Ponng, Dak Lak....            *
  44....................................  Y-Sen Buon Krong...........  Buon Ko Mieo, Dak Lak......            *
  45....................................  Rmah Hyuh..................  Plei Bitel, Gia Lai........            *
  46....................................  Rmah Pol...................  Plei Bitel, Gia Lai........            *
  47....................................  Ksor Dar...................  Gia Lai Province...........            3
  48....................................  Rahalan....................  Gia Lai Province...........            2
  49....................................  Rahlan Loa.................  Buon Toat, Krong Pac, Dak              9
                                                                        Lak.
----------------------------------------------------------------------------------------------------------------
* = Length of sentence unknown.

    On December 25, 2002, 10 Montagnards were sentenced to from 2 to 10 
years in prison plus 4 years probation; their names are listed below:


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  50....................................  Rahlan Phyul...............  Plei Sung Kat, Duc Co, Gia             2
                                                                        Lai.
  51....................................  Y-Pum Buonya...............  Buon Kmien, Krong Buk, Dak             8
                                                                        Lak.
  52....................................  Y-Thuon Nie................  Buon Kwang, Krong Buk, Dak            10
                                                                        Lak.
  53....................................  Nay Pham...................  Plei Kte, Ayunpa, Gia Lai..            5
  54....................................  Y-Prom.....................  Plei Bia Bre, Dak Doa, Gia             8
                                                                        Lai.
  55....................................  Y-Tien Nie.................  Buon Ea Nao, Buonmathuot,              8
                                                                        Dak Lak.
  56....................................  Y-Nai Mlo..................  Buon De, Krong Hnang, Dak              8
                                                                        Lak.
  57....................................  Y-Boh Nie..................  Buon Brao, Buonmathuot, Dak            8
                                                                        Lak.
  58....................................  Y-Ju Nie...................  Buon Brieng, Ea Kar, Dak               8
                                                                        Lak.
  59....................................  Y-Lem Buon Krong...........  Buon Kwang, Krong Buk, Dak             8
                                                                        Lak.
----------------------------------------------------------------------------------------------------------------

    The following is a list of the Montagnard people who are currently 
secretly imprisoned. The Vietnamese Government does not allow their 
families access to its prisoners. The Government has not published the 
names, locations, or the charges against the people in detention.


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  60....................................  Siu Thuk...................  Plei Lao, Cu Se, Gia Lai...            6
  61....................................  Kpa Thap...................  Plei Lao, Cu Se, Gia Lai...            6
  62....................................  Siu Grih...................  Plei Lao, Cu Se, Gia Lai...            6
  63....................................  Hyan.......................  Plei To Drah, Cu Se, Gai               2
                                                                        Lai.
  64....................................  Dol........................  Plei To Drah, Cu Se, Gia               2
                                                                        Lai.
  65....................................  Rmah Teng..................  Plei Bo, Cu Se, Gia Lai....            8
  66....................................  Ksor Hnel..................  Plei Bo, Cu Se, Gia Lai....            6
  67....................................  Rmah Anur..................  Plei Bo, Cu Se, Gia Lai....            8
  68....................................  Goih.......................  Plei To Drah, Cu Se, Gia               6
                                                                        Lai.
  69....................................  Byun.......................  Plei Lon, B12, Gia Lai.....            8
  70....................................  Y-Het Nie..................  Buon Sek, Ea Hleo, Dak Lak.            *
  71....................................  Dinh Mlem..................  Plei To Drah, Cu Se, Gia               6
                                                                        Lai.
  72....................................  Brong Kpa..................  Buon Jung, Krong Pac, Dak              9
                                                                        Lak.
  73....................................  Y-Nuel Nie.................  Buon Jung, Krong Pac, Dak             11
                                                                        Lak.
  74....................................  Bli........................  Plei Pheo, Cu Se, Gia Lai..            6
  75....................................  Siu Ye.....................  Plei Mo, Cu Se, Gia Lai....            6
  76....................................  Bah........................  Plei Hrai Dong, Cu Se, Gia             6
                                                                        Lai.
  77....................................  Em.........................  Plei La Lang, Pleiku, Gai              7
                                                                        Lai.
----------------------------------------------------------------------------------------------------------------
* = Length of sentence unknown.

    On May 26, 2003, in Dak Lak Province, 15 Montagnards were sentenced 
to from 5 to 10 years in prison and from 3 to 5 years probation; their 
names are listed below:


----------------------------------------------------------------------------------------------------------------
                                                                                                       Prison
                   No.                               Names                  Region of Vietnam         Sentence
                                                                                                       (Years)
----------------------------------------------------------------------------------------------------------------
  78....................................  Y-Tim Buonya...............  (not known)................           10
  79....................................  Y-Het Nie Kdam.............  Buon Siek, Dak Lak.........           10
  80....................................  Y-Kroi B. Krong............  Buon ama Thuot, Dak Lak....            7
  81....................................  Y-Kim Enuol................  Buon ama Thuot, Dak Lak....            7
  82....................................  Y-Hai Knul.................  Buon Sah, Dak Lak..........            7
  83....................................  Y-Lia Nie..................  Buon ama Thuot, Dak Lak....            7
  84....................................  Y-Blik Ksor................  Buon ama Thuot, Dak Lak....            7
  85....................................  Nay Klong..................  Buon Siek, Dak Lak.........            5
  86....................................  Y-Oak Nie..................  Buon ama Thuot, Dak Lak....            5
  87....................................  Y-Hoen Hlong...............  Buon ama Thuot, Dak Lak....            5
  88....................................  Y-Kuo Nie Ksor.............  Buon Ea Hleo, Dak Lak......            5
  89....................................  Y-Dham Knul................  Buon ama Thuot, Dak Lak....            5
  90....................................  Y-Kro Nie..................  Buon ama Thuot, Dak Lak....            5
  91....................................  Y-Cuan Rcam................  Buon Ea Hiao, Dak Lak......            5
  92....................................  Y-Bhi Buonya...............  Buon Ko Mliao, Dak Lak.....            5
  93....................................  Y-Kuo Buonya...............  Buon Ko Mliao, Dak Lak.....           13
  94....................................  Y-He Eban..................  Buon Kdum, Cu Ebur, Dak Lak           12
  95....................................  Y-Jon Enuol................  Buon Kdun, Cu Ebur, Dak Lak           11
  96....................................  Y-Bil Enuol................  Buon Kdun, Cu Ebur, Dak Lak           10
  97....................................  Y-Wit Mlo..................  Buon Ale A, Dak lak........            8
  98....................................  Y-Tran Mlo.................  Buon Ale A, Dak Lak........            8
  99....................................  Y-Krong Hdok...............  Buon Kla, Ea Ana, Dak Lak..            5
  100...................................  Y-Kao Buon Drong...........  Buon Kmrong Prong, Ea Tu,              5
                                                                        Dak Lak.
----------------------------------------------------------------------------------------------------------------

    There were more secret trials and prison sentences for the 
Montagnards that we do not know about because no U.S. officials, 
journalists, or representatives of NGOs have been allowed to visit the 
central highlands since February 2, 2001.
    The Hanoi Government has been regularly criticized for a decade by 
the International Human Rights Groups for its brutal repression of 
political and religious dissidents--especially the Montagnard people in 
the central highlands of Vietnam. However, the Hanoi Government has 
been ignored and has free hands to act.
    Many Montagnards have disappeared from their families, and they 
have not been found in the refugee camps in Cambodia. They could 
possibly have been brought to trial at unknown, secret locations. The 
individuals listed above are known because the were tried in local 
provinces.
                              Rong Nay, Executive Director,
                               Montagnard Human Rights Organization


    Senator Brownback. Thank you very much. That was very 
touching. Were the security forces that came in, were they 
local security forces or were they from the national 
government, the security forces that did this?
    Mr. Eban (speaking through a translator). It was the police 
from the national government.
    Senator Brownback. And the reason I ask that is, we're 
getting from some people that, okay, there's some religious 
freedom in certain areas and there isn't in others, and I 
wondered if this is based upon local enforcement or that--if 
it's just directed at certain groups or what the situation is, 
and this would seem to impact it, whether it's a national 
police force or if it's a local police group.
    Mr. Eban (speaking through a translator). I think the 
security force came from the head of the government to our 
village, and they did not allow us to worship God, and whenever 
we gather more than three people, they would just force us or 
confiscate all the materials that we are studying.
    Senator Brownback. Thank you. Ms. Foote, as a comment to 
you, the economic relationship's growing, there's a lot of 
interest. I met with An Chinh when I was in Hanoi, a great deal 
of interest in expanding that relationship, looking at a good 
economic opportunity. It looked to me like there's been a great 
deal of on-the-ground economic success for Vietnam, yet I 
continue, as I said to the first panel, and say to you and I 
say to you and I say to the An Chinh as well, the progress 
really does need--we need to see progress in these areas as 
well, so that--and I know that the An Chinh supports that, that 
they want to see human rights taking place, they want to see 
religious freedoms.
    I would hope your group could convey that to the businesses 
that you work with in Vietnam, the Vietnamese Government, that 
this is a serious matter, it isn't about destabilizing Vietnam, 
if that's what some seem to believe it is. It isn't about 
taking the relationship backwards. I don't think anybody wants 
to do that.
    But the story you've heard here is the type of which I've 
heard repeatedly in my office of a number of different 
situations in a number of different cases in a number of 
different faiths, and it's just--it's growing too much, there 
are too many, it's too well corroborated. It has to stop or 
this is going to--this will poison what has been a growing 
relationship, and I think really your group's in one of the 
best positions to convey the seriousness of that for us to move 
the relationship on forward.
    Ms. Foote. Senator, I understand your concern in this area, 
and the U.S. Vietnam Trade Council has been in fact very 
involved in many of these issues. We have a commercial law 
program there, that I personally have been involved with some 
of the political prisoner issues and negotiated some of those 
releases over the years. So you can rest assured that these are 
issues that we are involved with.
    I think what I was trying to address though is the use of 
sanctions or the use of turning the relationship back, and what 
is useful in moving forward commercial reform, political 
reform, freedom of the press, all of these issues, I think is 
not sanctions. I think what we've seen in the last 15 years is 
that engagement has really improved on both sides, on the 
economic side and on the human rights side, that those 
relationships in engagement have made a difference in Vietnam.
    Senator Brownback. I would agree with that. I just--I am 
really puzzled as to why now, why the crackdown now over the 
past couple of years? Because it would seem as if the trend 
line has been positive for a number of years and then the last 
couple you get--you get these situations, you get the 
Ambassador saying you've got 170,000 Protestants and two 
churches, you've got a bunch of churches closing, the professor 
notes this. It seems to run counter to where the trend line is 
going or should be going for us to further this relationship.
    I don't know if you, or maybe Professor Dinh might be 
better to comment, and I'd be happy to come back to you, is why 
now? Why are we seeing this sort of thing taking place now?
    Mr. Dinh. If I may venture a comment as a commentator and 
observer of the situation, I think that--and this was noted by 
both Mr. Daley and Ambassador Hanford--the Vietnamese 
Government is heterogeneous in nature. It has internal issues 
and viewpoints, and there are ebbs and tides--ebbs and flows 
within the various different coalitions. Whenever you have a 
significant movement or improvement in one area, for example, 
in free trade, there needs to be some reassurances that there 
is not a permanent and irreversible departure from the path of 
the ideology that the Communist Party is committed to.
    You see a little bit of the dialogue, if you will, that 
works out very tragically for the victims that are involved. I 
think that it also augurs a very important lesson for us as we 
continue moving forward in concrete steps in the road toward 
full economic integration. Most significantly, the next step 
would be the World Trade Organization accession and the 
discussion relating to it. I think that we should use these 
areas where the government is paying a lot of attention to, and 
use these dialogues in order to bring up issues that are 
important to us.
    It is no secret that after 9/11 foreign governments who 
speak to the United States Government speak in terrorism terms, 
because those are the terms that we understand best after 9/11. 
Likewise, when we speak to the Vietnamese Government, the terms 
they understand best at this phase is WTO accession and full 
economic integration. I think that those conversations are a 
great opportunity for us to bring issues of concern to us to 
the attention of the leadership.
    Ms. Foote. Can I also comment on that?
    Senator Brownback. Please, please.
    Ms. Foote. I think it's a sign of progress that we are 
really talking about one part of Vietnam, and we are talking 
about one religion in Vietnam. I think if you look at all of 
the other issues that have been discussed in the relationship 
for the last 10 years, whether it's freedom of the press or the 
role of the national assembly, the rights of workers, these 
issues are making tremendous progress, and everybody recognizes 
that.
    I think the Catholic Church has made progress in the last 
several years. The new cardinal, the role of the church in 
society has grown, it hasn't shrunk. The churches are full. I 
would agree that starting with 2001 and that terrible incident 
and the sort of crescendo of economic, religious, and ethnic 
difficulties coming to a terrible head in 2001, but I don't 
think that takes away from all of the other areas where Vietnam 
has made progress in human rights and political issues.
    I would agree this issue needs more work, but I think the 
worst of the period was 2001, not currently.
    Senator Brownback. Mr. Thang?
    Mr. Thang. To truly understand the society of the 
Vietnamese Communist leadership, you need to look back all the 
way to 20 years ago when Mr. Minh Banh Ling initiated the 
policy, that's the renovation and openness policy. That policy 
came about because the leadership in Vietnam realized that they 
couldn't survive facing the dismal economy in Vietnam. So as a 
strategic move, they opened up the economy and some freedom of 
the press, some freedom of religion, some freedom of 
association as well.
    And then in 1997, there was a changing of the guard. The 
old guard came back to power, and we started seeing a slight 
backwards, starting in 1997, and it accelerated in 2001, and 
things, if you could compare between now and 20 years ago or 15 
years ago, things are much worse now than at that time. So we 
are talking about a long-term trend that has been a degradation 
and deterioration in terms of human rights and other freedoms 
like freedom of the press. There's less freedom of the press 
now than 15 years ago.
    And I'd like to add that the Vietnamese Government does 
believe that there is a scheme of the free world led by the 
U.S., and they give a name to that scheme, and that is called 
peaceful evolution, the monopoly on power of the leadership in 
Vietnam. Therefore, on the one hand, they need as a survival 
need, they need to open up at the economy. At the same time, on 
the other hand, they want to place more controls on the 
population because they don't want any challenge. They perceive 
as a threat to its power. They perceive the churches as a 
threat, this monopoly on the power on the people.
    Senator Brownback. You've given me a different thinking 
process on this. Normally when you open up economically, the 
other freedoms tend to follow along. That's been most of our 
historic experience, and yet the Vietnamese Government may be 
looking at, if we're going to maintain power we need to open up 
economically, but the other fields are ones that we're going to 
control much tighter or need to if we're not going to be 
evolved out of the governance. I had not thought it through in 
that sort of contextual terms.
    Ladies and gentlemen, thank you very much for being here. 
We will put your full statements into the record. Mr. Eban, I 
particularly appreciate your sacrifice of coming here and 
putting yourself and your family in jeopardy by being willing 
to appear here in person. That's very noble and very courageous 
of you to be willing to do that.
    The record will stay open for the requisite number of days. 
I apologize for several starts and stops here today, but I do 
appreciate very much your coming.
    The hearing is adjourned.

    (Whereupon, the hearing was adjourned.)


                            A P P E N D I X

                              ----------                              



   Additional Questions for the Record Submitted to Deputy Assistant 
          Secretary of State Matthew Daley by Senator Feingold

    Question. I understand that the governments of Laos and Vietnam 
recently agreed that their militaries will train together and work more 
closely to secure their border. Have you seen any evidence that 
Vietnamese military troops are operating in Laos against Lao groups? If 
so, is there any indication who they might be targeting?

    Answer. There is no evidence that there are organized Vietnamese 
military units operating in Laos. Under an overarching defense 
agreement between the Lao and Vietnamese Ministries of Defense, there 
are, however, several Vietnamese military advisors to the Lao military 
working openly in such areas as POW/MIA recovery and road construction. 
The Lao-Vietnam defense agreement includes specific memoranda of 
understanding covering exchange visits; training of personnel; 
cooperation in political-military affairs; and cooperation in the 
maintenance of weapons systems. We do not exclude the possibility that 
Vietnamese advisors have accompanied Lao People's Democratic Republic 
units when operating against armed resistance groups.

    Question. Human Rights Watch claims that Vietnam's already poor 
human rights record has deteriorated dramatically over the past year. 
How has freedom of the press fared during this time? Does the 
Vietnamese government continue to crack down on ``cyber-dissidents,'' 
as they did with Pham Hong Son, who was convicted in June 2003 for 
posting pro-democracy statements on the Internet? What has the State 
Department done to pressure the Government of Vietnam to respect 
freedom of the press?

    Answer. As noted in the annual Human Rights Report, freedom of the 
press is highly restricted. We are especially concerned about the cases 
of several Vietnamese activists who, via the Internet, criticized the 
Communist Party, the 1999 border agreement with China, or called for 
new political parties, and are in jail awaiting trial or were sentenced 
to jail terms last year. The latest sentence was given to Nguyen Vu 
Binh on December 31, 2003, and we strongly condemned his sentence as we 
did the sentences of Pham Hong Son, Nguyen Khac Toan and Le Chi Quang 
before him. These arrests and sentences violate international standards 
for the protection of human rights, including the International 
Covenant for Civil and Political Rights to which Vietnam is a Party. 
During bilateral meetings with all levels of the Vietnamese Government, 
we consistently raise our concerns over these cases and the 
restrictions placed on freedom of expression and the media. We continue 
to urge the Government to improve the due process and rule of law in 
its criminal justice system and protect the rights of its citizens to 
express themselves.
    In order to promote more free media in Vietnam, the U.S. Mission 
includes journalists in its International Visitor projects, and we are 
currently planning a visit for Vietnamese journalists to study the U.S. 
2004 Presidential elections. Through the Fulbright program we have also 
sent several Vietnamese journalists and journalism students to the U.S. 
for master's degrees--and the chance to study a democratic media model.

                                 <all>


</pre></body></html>
